<html>
<title> - IMPROVING THE LABORATORY EXPERIENCE FOR AMERICA'S HIGH SCHOOL STUDENTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  IMPROVING THE LABORATORY EXPERIENCE
                   FOR AMERICA'S HIGH SCHOOL STUDENTS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2007

                               __________

                            Serial No. 110-9

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science


                      U.S. GOVERNMENT PRINTING OFFICE
33-612 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 

                                 ______





                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           FRANK D. LUCAS, Oklahoma
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant







                           C O N T E N T S

                             March 8, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    12

                                Panel 1:

Hon. Ruben Hinojosa, a Representative in Congress from the State 
  of Texas
    Oral Statement...............................................    13
    Written Statement............................................    15

                                Panel 2:

Dr. Arthur Eisenkraft, Distinguished Professor of Science 
  Education; Director, Center of Science and Math in Context 
  (COSMIC), University of Massachusetts, Boston
    Oral Statement...............................................    17
    Written Statement............................................    18
    Biography....................................................    22

Ms. Linda K. Froschauer, President, National Science Teachers' 
  Association; K-8 Science Department Chair, Weston Public 
  Schools, Weston, Connecticut
    Oral Statement...............................................    23
    Written Statement............................................    24
    Biography....................................................    31

Dr. Jerry Mundell, Professor of Chemistry, Cleveland State 
  University
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    36

Discussion.......................................................    36

              Appendix: Additional Material for the Record

H.R. 524, To establish a laboratory science pilot program at the 
  National Science Foundation....................................    54


 IMPROVING THE LABORATORY EXPERIENCE FOR AMERICA'S HIGH SCHOOL STUDENTS

                              ----------                              


                        THURSDAY, MARCH 8, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 3:10 p.m., in 
Room 2320 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  Improving the Laboratory Experience

                   for America's High School Students

                        thursday, march 8, 2007
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On March 8, 2007 the Committee on Science and Technology will hold 
a hearing to receive testimony on the shortcomings of the use of 
laboratories in high school science education and to consider related 
legislation. H.R. 524 directs the National Science Foundation (NSF) to 
establish a pilot program of grants to partnerships of high schools and 
other institutions to identify best practices for improving the 
educational effectiveness of science laboratories. The bill is in 
response to the findings of the National Research Council's (NRC) 2005 
report, America's Lab Report: Investigations in High School Science.
    This hearing will discuss how issues like lack of coordination 
between the laboratory exercises and classroom lectures, inadequately 
trained teachers, languishing facilities, and current high school 
organization diminish the value these exercises can have or prohibit 
them all together. Most importantly, this hearing will highlight how a 
strong hands-on experience can create scientifically literate students, 
interested in pursuing a career in science.

Witnesses

Panel 1

The Honorable Ruben Hinojosa, the Representative from the 15th district 
of Texas

Panel 2

Dr. Arthur Eisenkraft, Distinguished Professor of Science Education, 
Director of the Center of Science and Math in Context, University of 
Massachusetts, Boston, Graduate College of Education; co-author of 
America's Lab Report: Investigations in High School Science.

Mrs. Linda Froschauer, President, National Science Teachers 
Association.

Dr. Jerry Mundell, Adjunct Professor and General Chemistry Laboratory 
Manager, Department of Chemistry, Cleveland State University, 
Cleveland, Ohio.

Overarching Questions

        <bullet>  How important is the laboratory experience in 
        teaching students to understand scientific concepts?

        <bullet>  What are the common obstacles for creating and 
        maintaining laboratories and developing curriculum to teach 
        laboratory experiences?

        <bullet>  Will H.R. 524 help address those obstacles and make 
        lab instruction more accessible to all students?

Summary of National Research Council's America's Lab Report: 
                    Investigations in High School Science

    In 2005 the National Research Council published America's Lab 
Report: Investigations in High School Science, a study which looked at 
the role laboratory learning can have for the country's high school 
students, the current situation of laboratory learning, and what can be 
done to improve these often unproductive programs. The NSF commissioned 
this study as a precursor to fulfilling the mandate Congress gave the 
agency in the 2002 NSF Authorization Act (P.L. 107-368) to launch a 
secondary school systemic initiative, which would ``promote scientific 
literacy'' and ``meet the mathematics and science needs for students at 
risk of not achieving State student academic achievement standards.'' 
Specifically, section 8(E) of the law required NSF to support programs 
for such activities as ``laboratory improvement and provision of 
instrumentation as part of a comprehensive program to enhance the 
quality of mathematics, science, engineering, and technology 
instruction.'' As scientific and technical fields become an increasing 
part of the global economy, it is imperative that America's students be 
adequately prepared to compete for high-tech jobs and create the 
innovation that drives the economy.
    The NRC report found that the laboratory science programs in high 
school classrooms are in disarray, and certain factors seriously hamper 
efforts to improve them. The NRC report committee concluded that there 
exists no commonly agreed upon definition of laboratories in high 
schools amongst researchers and educators. Without agreement on a 
definition of what constitutes a laboratory exercise, research and the 
accumulation of knowledge on specific methods to improve the experience 
for student is undirected, difficult to classify, and difficult to draw 
conclusions from.
    Though research on laboratory exercises may not be well delineated, 
American students poor achievement in science is. Assessments of 
national trends in science learning show that American students at all 
levels are at roughly the same level of proficiency in science that 
they were at 30 years ago. International assessments show American 
students fare worse than their peers in other countries. It is clear 
from studies of undergraduate science students that many are unprepared 
for college-level work. A 2002 survey of first-year students planning a 
major in science, technology, engineering, or mathematics (STEM) showed 
20 percent in need of remedial math work and 10 percent in need of 
remedial science work. Those who come unprepared for college-level work 
often do not succeed and will leave the STEM fields.
    Through their review of the available studies, the NRC report 
committee developed a list of desired outcomes for laboratory 
experiences. The studies showed that laboratory experiences may help 
students enhance mastery of subject matter, develop practical skills 
with tools and instrumentation, develop teamwork abilities, and 
cultivate an interest in science. Additionally, the NRC committee noted 
that laboratory experiences expose students to the complexity and 
ambiguity of real empirical work. These concepts cannot be taught in 
lectures or textbooks. Students must interact directly with scientific 
phenomena to appreciate this aspect of science.
    Unfortunately, the typical laboratory experience for most of the 
country's high school students is poor. Studying the current situation 
in the classroom, the NRC report committee concluded that teachers 
often implement laboratory exercises that are not synchronized to the 
classroom lecture, do not have clear learning goals, neglect student 
feedback and discussion, or are not designed to integrate the learning 
of science material with the learning of scientific process. Teachers 
are rarely provided adequate pre-service training or in-service 
professional development to lead these exercises. The lack of 
flexibility in high school organization can also impedes the 
implementation of more effective laboratory exercises.
    The NRC report committee came to the conclusion that State 
standards are also to blame for the failures in the laboratory. 
Teachers must cover an extensive list of standards, leaving little time 
for the development and implementation of laboratory curricula. The NRC 
report points to one study of California State standards showing that 
students are required to carry out laboratory exercises that engage in 
activities like hypothesis forming, data collection, problem solving, 
but at the same time they must also master an extensive list of science 
topics that puts impossible time constraints on laboratory exercises. 
And, since large-scale assessments of science mastery are not designed 
to measure student attainment of laboratory goals, laboratory exercises 
are further neglected.

H.R. 524

    H.R. 524 amends the NSF Authorization Act of 2002 to establish a 
pilot program at NSF to fund grants to improve laboratory sciences. The 
grants, which require a funding match, must go to partnerships between 
high schools and institutions of higher learning (including community 
colleges), businesses, eligible non-profit organizations, State 
educational, or other public agencies, National labs, or community-
based organizations. These grants are intended to support the 
development of laboratory exercises integrated with classroom 
curriculum and teacher development, and to provide for the acquisition 
of laboratory equipment and instrumentation. A provision is also made 
in the bill for supporting these activities in schools serving minority 
populations under-represented in science and engineering.
    The pilot projects authorized by H.R. 524 will address some of the 
needs for research and demonstration activities raised by the NRC 
report. Because the NRC committee found the evidence on best practices 
for high school science laboratories too inconclusive to make specific 
recommendations, they delivered a series of questions in five broad 
categories for policy-makers, researchers, and educators to address. 
These areas are: the assessment of student learning in laboratory 
exercises; the most effective pedagogy methods for laboratory 
exercises; how to serve a diverse population of learners; the best 
organization of schools and school systems for a well-functioning 
laboratory program; and the best way to prepare educators to administer 
effective laboratory programs.

Questions for Witnesses

    The panelists were asked to address the following questions in 
their testimony before the Subcommittee:
Dr. Arthur Eisenkraft

        <bullet>  Please explain the background that was the impetus of 
        the National Research Council's report America's Lab Report: 
        Investigations in High School Science. What were the report's 
        findings? Can you characterize one or two as being the most 
        critical in implementing a successful laboratory program?

        <bullet>  What recommendations would the study committee make 
        to improve the laboratory experience for students?

Mrs. Linda Froschauer

        <bullet>  How important is the laboratory experience for 
        students in understanding scientific concepts? What is current 
        state of laboratory facilities and instruction in the country?

        <bullet>  What are the biggest concerns your member science 
        teachers have about laboratory education and implementing an 
        effective program?

        <bullet>  Will H.R. 524 assist in developing and implementing 
        effective science laboratory programs for high school students?

Dr. Jerry Mundell

        <bullet>  Please describe the curriculum you've developed for 
        students in the Cleveland Public schools. How has your position 
        at Cleveland State University informed your motivation and 
        ideas for high school laboratory curriculum?

        <bullet>  What obstacles have you encountered in creating lab 
        programs for high school students? Have you assessed students' 
        mastery of concepts using the curriculum you've developed? What 
        methods have you used to measure this?

        <bullet>  Will H.R. 524 assist in developing and implementing 
        effective science laboratory programs for high school students?

H.R. 524, To Establish a Laboratory Science Pilot Program at the 
                    National Science Foundation

Summary of Major Provisions of the Bill
    This bill would establish a pilot program at the National Science 
Foundation to award grants to partnerships to improve science 
laboratories at the secondary school level. The grants may be used for 
a variety of activities to improve the laboratory experience for high 
school students with particular regard to minorities who are under-
represented in science and engineering.
Section-by-Section Analysis of H.R. 524
Section 1. Findings
Section 2. Grant Program

-  Amends Section 8(8) of the National Science Foundation Authorization 
Act of 2002 to include a section authorizing a laboratory science pilot 
program for secondary schools.

-  Requires the National Science Foundation Director to establish a 
pilot program designated as `Partnerships for Access to Laboratory 
Science' to award grants to partnerships to improve laboratories and 
provide instrumentation as part of a comprehensive program to enhance 
the quality of mathematics, science, engineering, and technology 
instruction at the secondary school level.

-  Requires that the grants awarded be used for the following types of 
activities: to purchase, rent, or lease equipment; maintain, renovate, 
or improve laboratory facilities; engage in professional development 
and training activities for teachers; develop instructional programs 
designed to integrate the laboratory experience with classroom 
instruction and be consistent with State mathematics and science 
academic achievement standards; the training in laboratory safety for 
school personnel; the design and implementation of hands-on laboratory 
experience to encourage the interest of individuals identified in 
section 33 or 34 of the Science and Engineering Equal Opportunities Act 
(42 U.S.C. 1885a or 1885b) in mathematics, science, engineering, and 
technology and help prepare such individuals to pursue post-secondary 
studies in these fields; and assessment of the activities funded by 
this pilot program.

-  Requires the grants awarded under amended subparagraph A be to a 
partnership that includes an institution of higher education or a 
community college, a high-need local educational agency, a business or 
eligible nonprofit organization, and may include a State educational 
agency, or other public agency, National Laboratory, or community-based 
organization.

-  Requires that the federal cost share for these grants be no more 
than 50 percent.

Section 3. Report

-  Requires the Director of the National Science Foundation to evaluate 
the effectiveness of activities carried out under this grant program 
and submit a report, no later than five years after the enactment of 
the act, to the Committee on Science and Technology of the House of 
Representatives, and the Committees on Commerce, Science, and 
Transportation and on Health, Education, Labor, and Pensions of the 
Senate. The report shall identify best practices and materials 
developed and demonstrated by grant awardees.

Section 4. Authorization of Appropriations

-  Authorizes the appropriation of $5,000,000 to the National Science 
Foundation for fiscal year 2008 and such sums that may be necessary for 
the three succeeding fiscal years to carry out this Act.
    Chairman Baird. This hearing will come to order. I 
appreciate the presence of our witnesses, we had recent votes, 
so I apologize for the delay, but we are very glad you are all 
here.
    We are also waiting on a fellow Member who undoubtedly is 
tied up with some other committee business. Mr. Hinojosa, we 
hope, will be here shortly. If he arrives, we will insert him 
into the proceedings as well.
    I want to first welcome everyone, and thank you all for 
coming to this afternoon's hearing on Improving the Laboratory 
Experience for America's High School Students. This is 
particularly exciting for me. It marks the very first hearing 
of the Research and Science Education Subcommittee for this 
Congress, and I want to take just a moment to express how 
pleased I am to be able to chair this particular subcommittee.
    I want to especially thank my good friend and colleague, 
Ranking Member Dr. Ehlers, who was the leader of this very 
committee until recently. He has been a true leader on the 
Science Committee in general, has extensive knowledge of and 
experience with the important issues that come before this 
committee, and I look forward to drawing upon his knowledge and 
his friendship, and also, working together in a bipartisan 
manner throughout this Congress. I am pleased he will be 
leading this subcommittee on the Republican side, and also, am 
glad to see Mr. Hall here.
    Oh, Mr. Hinojosa is here. Well, welcome. We are just 
getting started. So come on up, my friend, and we will start 
with you once I get through all my initial palaver.
    I also want to acknowledge, though she is not with us 
today, on the Democratic side, Eddie Bernice Johnson, who 
preceded me as the Democratic lead on this subcommittee, in her 
role as Ranking Member. I intend to continue her good work, and 
especially, her commitment to math and science education, 
particularly as it pertains to under-represented communities. I 
am pleased that Ms. Johnson has decided to continue her service 
on this committee.
    As it is the first Committee hearing, I want to take just a 
brief moment to offer a few observations of how I will approach 
this committee, and hopefully, that will set the stage for some 
of what we will do in the future. I would say at the start that 
long before I was in Congress, I was a scientist. I hold a 
doctorate in clinical psychology, specialized in 
neuropsychology, and science is not just a committee I serve 
on, as I know it is the same with Dr. Ehlers. This is something 
that is in our blood. We are scientists. We are passionate 
about it, and I am passionate about it not just as a scientist, 
but as a Member of Congress. I believe that reason, informed by 
fact, is a pretty darn good way to lead your life, and it is a 
very good way to make public policy. And we are not alone in 
that. Those who know the history of this great country know 
that some of our greatest Founders, Franklin especially, but 
also Jefferson and Washington, as well, had a passionate 
commitment to science and to investigative research as a way to 
guide agriculture, as well as public policy.
    At the same time, because I have been in the scientific 
field, I recognize that science has its share of problems, and 
there is room for improvement. And I want to underscore from 
the outset that ultimately, government-funded scientific 
research, as important as it is, exists by taking the hard-
earned money of taxpayers, who could use that money in 
countless other ways, to fund their health care, to send their 
kids to school, to pay for their house, you name it, and they 
take that money, we as government take that money from 
hardworking taxpayers, and we give it to scientists to conduct 
their studies. That seems to me to place a particular 
responsibility on the scientists who receive such funds. Simply 
put, if someone cannot explain why it is worthwhile to take 
another person's hard-earned money to do a study, maybe that 
study should not be done. And I know that is a strong 
principle, and I am passionate about science, but I believe 
scientists have a responsibility to recognize where the money 
comes from that funds their studies.
    I also believe that because we have placed such a high 
premium and value on scientific research, it is especially 
incumbent upon the scientific community to hold themselves to 
the highest standards of integrity, objectivity, and honesty 
when reporting scientific information, not only to the 
Congress, but to the broad scientific community. We make 
important decisions based on the work of scientists, and the 
onus is on them to make sure their work merits that 
credibility.
    I recognize fully that many times, scientific research at 
the initial stages is not always transparent, in terms of how 
it might be applied down the road, but I would urge all 
scientists, especially those receiving government funds, to ask 
themselves at some point: ``How do I justify that to the crab 
fishermen on the Pacific Coast, or the logger in the mountains, 
or the farmer in Kansas, or the steelworker in Pennsylvania, 
who have given their money to fund my research?'' And we will 
keep that in mind as we proceed through this Congress and 
through this committee.
    I finally want to say this: I believe that one of the great 
things about science is it should not be partisan. Information, 
reason, informed discussion has no preference, necessarily, for 
one party or another. I have come to learn, since I have been 
in Congress, there are many good ideas on both sides of the 
aisle, and we should listen to them regardless of which side 
they come from. I have also come to believe there are many 
stupid ideas on both sides of the aisle, and we should evaluate 
them accordingly.
    But on this committee, I will say to my friends, Dr. 
Ehlers, Mr. Hall, I look forward to working with you. If you 
folks have some things we can work on together, by all means, 
let us do it. And as we are working forward on issues coming 
from our side, we will approach you and see how we can make it 
better for everybody concerned.
    So, thank you for your leadership, and with that, I want to 
say that, turning to today's testimony, I want to particularly 
welcome Congressman Hinojosa, who is appearing before us. He 
has introduced H.R. 524, a bill that would authorize the 
National Science Foundation to make matching grants to 
partnerships between high schools and institutions of higher 
education, business, or other community organizations, to 
explore ways to improve science labs for students. These grants 
will be used for teacher training and development, equipment 
and facilities, and curriculum development. The research and 
demonstration projects will be focused on improving labs at 
high schools serving large populations of students under-
represented in science and math careers today. Studies show it 
is these kids at the lowest rungs of the socioeconomic ladder, 
who are most lacking in this valuable learning experience.
    How valuable is the lab experience for teaching science, 
and what is wrong with the labs in high schools now? The 
National Research Council brought attention to this issue in 
2005 with their report, ``America's Lab Report: Investigations 
in High School Science.'' The report presents an in-depth look 
at the problems plaguing the effective use of what many 
consider to be an integral part of learning science. To be 
sure, languishing facilities and old equipment are problems. 
The report, though, brings attention to the non-physical 
issues, such as inadequate teacher training and preparation, 
lab exercises not designed to fit with classroom curricula, and 
State science standards that are too extensive to actually 
allow time in the laboratory.
    This subcommittee is devoted to improving science 
education, so devoted that we added science education to the 
name of the Subcommittee itself. We are concerned that American 
students are not achieving their potential in science and math 
education. It is a concern not only as we look at competing in 
a knowledge-based global economy for the high paying technology 
jobs, but at all levels of our economy. Folks need to have an 
understanding of science and math in order for them to succeed 
as individuals, and our nation to succeed as a country.
    Improving K-12 science education is the ultimate key to the 
future prosperity and strength of our nation, as the National 
Academy pointed out in its report, ``Rising Above the Gathering 
Storm.'' Improving K-12 education needs to be the keystone of 
any innovation agenda. I look forward to hearing from our 
witnesses today, and I want to recognize, now, Dr. Ehlers, for 
an opening statement.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good afternoon. I want to welcome everyone and thank you for coming 
to this afternoon's hearing on Improving the Laboratory Experience for 
America's High School Students.
    This marks the very first hearing of the Research and Science 
Education Subcommittee this Congress, and I want to take just a moment 
to express how pleased I am to be able to chair this particular 
subcommittee.
    I want to thank Ranking Member Ehlers. He has been a true leader on 
the Science Committee and has extensive knowledge on the important 
issues that will come before this subcommittee over the next couple of 
years. I am pleased that he will be leading this subcommittee with me, 
and look forward to working with him closely.
    I also want to acknowledge the great work of Congresswoman Eddie 
Bernice Johnson, who preceded me as the Democratic lead on this 
subcommittee. I intend to continue her commitment to math and science 
education, particularly in under-served communities, and am pleased 
that she has decided to continue her service on this subcommittee.
    Long before I was a Member of Congress, I was a scientist. Long 
after I complete my service in this body, I will still be a scientist. 
Science is in my blood, it is part of my being. I value science not 
just for the astonishing discoveries and inventions it has produced, 
but as a method of making decisions and, in some ways, of leading one's 
life. Reason, informed by careful, critical evaluation of evidence, 
strikes me as the key not only to science, but to a successful personal 
life and--perhaps more importantly for our purposes here--to a 
successful republic. That view, as Members of this subcommittee will 
all know, was embraced by the Founding Fathers, many of whom were 
either practicing scientists in the world, or avid consumers of 
scientific research, as exemplified by Jefferson and Washington.
    From that background, I approach the opportunity to chair this 
subcommittee with a mixture of profound excitement and some concern. 
Excitement--because this committee will have the opportunity and 
responsibility to address some of the core government programs that 
support much of the most advanced research being conducted anywhere in 
the world. To those of us who so passionately care about the scientific 
endeavor, and who see that endeavor as holding the keys to some of our 
most vexing national problems, this is a thrilling prospect.
    At the same time, because I have spent time in the scientific 
field, I recognize that we scientists are not perfect and that there is 
room for improvement in the science community.
    Ultimately, government funded scientific research takes the hard 
earned money of taxpaying citizens, money that those citizens could 
otherwise put toward paying for their own health care, for their homes, 
for their retirement, for their children's education, money that was 
not easily come by and is not easily parted with, and gives that money 
instead to scientists to pay for their research. Government funded 
scientists need to appreciate this fundamental sacrifice and, thereby, 
the responsibility it carries.
    Simply put, if someone cannot explain why it is worthwhile to take 
another person's hard-earned money to do a study, maybe the study 
should not be done. That may seem shocking to say so directly, but I 
sincerely believe it is a matter of principle.
    I recognize that in many instances, the government investment in 
science has paid off a thousand-fold in ways not easily imagined when 
the core research was being funded or conducted. At the same time, 
however, there is also much government funded research that provides 
very little return and yields only marginally used or applicable 
information. I recognize that there are no easy answers to these 
questions, but I think it is important that this subcommittee at least 
consider these questions as we move forward with our work.
    I also believe that scientists who receive government money have a 
special responsibility to ensure that the research they perform with 
that money is consistent with the highest standards methodologically. 
Precisely because science and scientists are held in such high esteem 
by the public and policy-makers, I believe they bear a special 
responsibility for honesty, objectivity, rigor and integrity.
    Finally, before turning to today's hearing, I wanted to say that I 
have always believed that there are good ideas on both sides of the 
aisle here in Congress. I very much want this subcommittee to operate 
in a bipartisan manner. I look forward to the input of Members of both 
parties as we work together to further the important work of this 
subcommittee.
    Today, we'll be hearing testimony on the use of the laboratory 
experience in high school science classrooms. For a number of reasons, 
which we'll hear about today, this part of the science curriculum is 
currently in disarray across the country. I use the term ``laboratory 
experience'' rather than just ``lab'' because the challenge of 
effectively using a laboratory to teach students science turns out to 
be more difficult than just making sure we have enough Bunsen burners 
and beakers in every classroom.
    I'd like to welcome Congressman Hinojosa who is appearing before us 
today. He has introduced H.R. 524, a bill that would authorize the 
National Science Foundation to make matching grants to partnerships 
between high schools and institutions of higher educations, businesses, 
or other community organizations to explore ways to improve science 
labs for students. These grants can be used for teacher training and 
development, equipment and facilities, and curriculum development. The 
research and demonstration projects will be focused on improving labs 
at high schools serving large proportions of students under-represented 
in science and math careers today. Studies show that it is these kids, 
at the lowest rungs on the socio-economic ladder, who are most lacking 
in this valuable learning experience.
    How valuable is the lab experience for teaching science, and what's 
wrong with the labs in high schools now? The National Research Council 
brought attention to the issue in 2005 with their report, America's Lab 
Report: Investigations in High School Science. The report presents an 
in depth look at the problems plaguing the effective use of what many 
consider to be an integral part of learning science. To be sure, 
languishing facilities and old equipment are problems. The report, 
though, brings attention to the non-physical issues, such as inadequate 
teacher training and preparation, lab exercises not designed to fit 
with the classroom curriculum, and State science standards too 
extensive to allow time in the laboratory.
    This subcommittee is devoted to improving science education--so 
devoted that we added science education to the name of the 
Subcommittee. We are very concerned that American students are not 
achieving their potential in science and math education. This is a 
concern as we look at competing in a knowledge-based global economy, 
and it's a concern when we look at being able to give every American an 
opportunity for those high-paying technology-based jobs. Improving K-12 
science education is the ultimate key to the future prosperity and 
strength of our nation. As the National Academy pointed out in its 
report Rising Above the Gathering Storm, improving K-12 education needs 
to be the keystone of any innovation agenda.
    I am looking forward to hearing from our witnesses today. Thank 
you.

    Mr. Ehlers. Thank you, Mr. Chairman, and congratulations on 
your new post. We welcome you to that. I have always admired 
your honesty and your integrity in dealing with issues, and I 
totally agree with you. Science is not partisan. Science policy 
can be partisan, but the science itself should not be.
    And I might just add an editorial comment, that I am upset 
at all those people who are trying to label the current White 
House as not being scientifically correct, and I recognize some 
members of the Administration might be, but I have watched 
Presidents over the years. Most of them are not very good at 
science. Most of them are not very good at using science, and I 
find it very disturbing that in spite of that record, and I 
don't think President Bush is any worse than anyone else who 
came along, probably somewhat better, but a pseudo-scientific 
group and certain scientists are trying to make science a 
partisan issue in the White House, and I don't think that is 
either helpful or appropriate.
    Let me also say, picking up on your comment about 
justifying the use of taxpayers' money. I totally agree with 
you, and I remember Chairman Sensenbrenner's frequent 
questions, when he chaired the Full Committee of Science, and 
scientists would come to him and ask for money for their 
particular projects. His first question always was: ``Have you 
talked to your Rotary Club about this?'' And this just sets 
them back, ``Why should I talk to my Rotary Club?'' And his 
answer was simply: ``If you can't sell it to your local Rotary 
Club, how do you expect me to sell it to the Congress.'' And 
that is the key point, all scientists should be out selling 
their particular work to the public, so they know it is being 
done, and the public will come to appreciate it.
    Having said that, let me give a somewhat more formal 
statement. Laboratory experiences are a significant part of the 
greater issue of improving STEM education in our nation. U.S. 
science literacy is weak at the K-12 levels, compared to other 
countries, and our universities are burdened with a tremendous 
amount of remedial work in these areas. I am constantly on a 
mission to find ways that we can strengthen our system of 
education at all levels to incorporate support for STEM 
teachers and students, STEM of course standing for science, 
technology, engineering, and mathematics.
    I am very pleased that my colleague, Representative 
Hinojosa, has introduced a bill to improve high school 
laboratory science, particularly for those in the highest need. 
I expect that the witnesses' reflections on laboratory science 
and the proposed legislation will be an invaluable part of the 
Committee process. There is clearly a need to improve upon high 
school laboratory experiences. One of the conclusions of the 
National Research Council's report on lab science was that 
educators and researchers do not agree on how to define high 
school lab science. This is a fundamental and necessary place 
to start. In fact, the NRC report found that there are such 
limited data on typical laboratory experiences that it is 
difficult to draw any conclusions about their effect on student 
learning.
    The experts on the NRC panel scrutinized the strengths of 
integrated lab experiences, and discovered that a lab is only 
helpful when it is fully integrated into the learning process. 
Additionally, the report revealed that there is a dearth of 
research in this area, and students across the Nation could 
benefit from a study on the best way to establish a successful 
laboratory.
    Let me also add a parenthetical note about why laboratory 
instruction is so essential today. A hundred and fifty years 
ago, over 90 percent of the people in this country lived on 
farms. And I don't know how many present have lived on a farm 
or worked on a farm. I grew up in a farming community, and 
every child who grows up on a farm learns physics by using the 
equipment on a farm. Today, only a small fraction of our 
population is on the farm, approximately two percent. That 
means 98 percent of our population is likely not experiencing 
the use of physics and physical equipment before they get into 
the schools, particularly high school, so it is essential for 
us to give them that experience that used to come with ordinary 
life, but no longer does.
    Another aspect of this is that Nobel Laureate Carl Wieman, 
who has been working in this area for years now, in fact, has 
recently decided to work full-time on improving science 
education. During his tenure at the University of Colorado, he 
developed a physics educational technology project using 
simulations for both teaching and learning physics, and has 
made them freely available through a website. These simulations 
emphasize the connections between real life phenomena and the 
underlying science, and draw heavily on prior research 
findings.
    Though Dr. Wieman's project was far from a traditional or 
even hands-on type of laboratory, the undergraduate physics 
students who used his simulations showed an increased mastery 
of concepts. In one of his research papers, Dr. Wieman 
concluded that ``many physicists find it quite mysterious, and 
somewhat disturbing, that carefully developed simulations are 
more educationally effective than real hardware.'' In other 
words, simply saying we have to have laboratory experiments may 
not be the entire answer. It may not even be the correct 
answer. Perhaps simulations may be more effective. Again, that 
is something that should be studied.
    As the National Research Council High School Lab Report 
also determined, I think that more evidence is necessary to 
determine what an effective laboratory looks like.
    I look forward to the discussion about developing 
integrated laboratories and to learn from our witnesses. All of 
them have tremendous experience in the trenches, and I welcome 
them here today.
    Thank you very much. I yield back.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Laboratory experiences are a significant part of the greater issue 
of improving STEM education in our nation. U.S. science literacy is 
weak at the K-12 levels, and our universities are burdened with a 
tremendous amount of remedial work in these areas. I am constantly on a 
mission to find ways that we can strengthen our system of education at 
all levels to incorporate support for STEM teachers and students. I am 
very pleased that my colleague, Representative Hinojosa, has introduced 
this bill to improve high school laboratory science, particularly for 
those in highest need. I expect that the witnesses' reflections on 
laboratory science and the proposed legislation will be an invaluable 
part of the Committee process.
    There is clearly a need to improve upon high school laboratory 
experiences. One of the conclusions of the National Research Council's 
Report on lab science was that educators and researchers do not agree 
on how to define high school lab science. This is a fundamental and 
necessary place to start. In fact, the NRC Report found that there is 
such limited data on typical laboratory experiences that it is 
difficult to draw any conclusions about their effect on student 
learning. The experts on the NRC panel scrutinized the strengths of 
integrated lab experiences, and discovered that a lab is only helpful 
when it is fully integrated into the learning process. Clearly, there 
is a dearth of research in this area, and students across the Nation 
could benefit from a study on the best way to establish a successful 
laboratory.
    Nobel Laureate Carl Wieman has been working in this area for years 
now--in fact, he has recently decided to work full time on improving 
science education. During his tenure at the University of Colorado, he 
developed a Physics Education Technology project with simulations for 
teaching and learning physics and has made them freely available from a 
website. These simulations emphasize the connections between real-life 
phenomena and the underlying science, and drew heavily on prior 
research findings. Though Dr. Wieman's project is far from a 
``traditional''--or even ``hands-on'' type of laboratory, the 
undergraduate physics students who used his simulations showed an 
increased mastery of concepts. In one of his research papers Dr. Wieman 
concluded that ``Many physicists find it quite mysterious and somewhat 
disturbing that carefully developed simulations are more educationally 
effective than real hardware.'' \1\ As the National Research Council 
High School Lab Report also determined, I think there is a lot more 
work necessary to determine what an effective laboratory looks like.
---------------------------------------------------------------------------
    \1\ Physics Today, November 2005, pp. 36-40
---------------------------------------------------------------------------
    I look forward to the discussion about developing integrated 
laboratories, and to learn from our witnesses. All of them have 
tremendous experience ``in the trenches,'' and I welcome them here 
today.

    Chairman Baird. Thank you, Dr. Ehlers. If there are any 
other Members who wish to submit additional opening statements, 
your statements will be added to the record.
    At this time, I would like to introduce the witness for our 
first panel, Congressman Ruben Hinojosa from Texas, the author 
of H.R. 524. Ruben, we are pleased to have you appear before us 
today to talk about your bill.
    I now recognize my friend from Texas for his testimony.

                                Panel 1:

STATEMENT OF HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Hinojosa. Good afternoon. Is the microphone on? I would 
like to thank Chairman Baird and Ranking Member Ehlers and all 
the Members of the Subcommittee for giving me the opportunity 
to present testimony on a pressing need: access to high quality 
laboratory science in our high schools.
    I would especially like to thank my fellow Texan, 
Congresswoman Eddie Bernice Johnson and Chairman of the Full 
Committee, Congressman Bart Gordon, for their advice and 
support in developing H.R. 524, the Partnerships for Laboratory 
Science Act, better known as PALS, which we are here to discuss 
today.
    I would like to express my appreciation to the STEM 
education community, particularly the chairs of the STEM 
Education Coalition, James Brown of the American Chemical 
Society, and Jodi Peterson of the National Science Teachers 
Association, for their advocacy on behalf of opportunities for 
our young people, and for their commitment to ensuring that we 
do not lose future scientists and engineers because they did 
not get preparation in laboratory science in high school.
    We have major holes in our pipeline for preparing future 
professionals in science, technology, engineering, and math, 
better known as the STEM fields. None is more glaring than the 
lack of preparation for college level work for the students 
graduating from high schools that have high concentrations of 
poor and minority students.
    The National Science Foundation commissioned a study by the 
National Research Council on the state of America's high school 
labs. I would like to draw your attention to two glaring 
findings in that report.
    One, the current quality of laboratory experiences is poor 
for most students, and educators and researchers do not agree 
on what constitutes an adequate high school laboratory, 
hampering the accumulation of research on how to improve labs.
    The second finding, schools with higher concentrations of 
non-Asian minorities and schools with higher concentration of 
poor students are less likely to have adequate laboratory 
facilities than other schools.
    Mr. Chairman, I ask unanimous consent that the rest of my 
statement be included in the record, because I would like to 
speak from personal experience of what I have seen in the good 
laboratories and in the poor ones.
    I come from an area in South Texas that is 250 miles south 
of San Antonio. The area is 80 percent Hispanic, and an area 
that has for too many years been neglected. We didn't see a 
sitting President in that area from 1953 to 1998, for 45 
consecutive years. Shameful. Big neglect.
    So, I can tell you that the area is now progressing, 
because we have been investing in human capital, in education 
of public schools, in colleges and universities, and other 
infrastructure projects that are helping that area prosper.
    But I want to share with you that we have the South Texas 
Independent School District with five magnet schools, two of 
which are listed in the top 1,000 high schools in the country. 
The Math and Science Academy is in the top ten, and has been 
for three consecutive years, and then, the Allied Health is a 
magnet school that is really focusing on allied health careers, 
and nursing, and we have produced a lot of practicing medical 
doctors.
    And the important thing is that we focused a great deal on 
the science labs. Why? Because, as one of the members of the 
Education Committee, here in Congress, I went to visit Thomas 
Jefferson High School, and that is in Northern Virginia, and 
always among the top producers of National Merit Scholars. It 
is amazing that they can produce 70 semifinalists for that 
designation, and that out of those 70 semifinalists, 40 got the 
National Merit Scholarship, and so, that is proof that what I 
am going to say makes a big difference, and that is that when I 
took a delegation from the Math and Science Academy of South 
Texas, there were about ten men and women who work there, the 
Superintendent, several of the Professors, and several school 
board members, and we noted that their laboratories was the 
most exciting thing that the students had in their rigorous 
educational program. You couldn't get a job at that school, 
because nobody wants to quit. They had teachers with Master's 
and Ph.D.s, and the students, you couldn't get them out, 
because they had such exciting projects.
    All this to say that we know that it works, because we now 
have two schools in the top 100 in the Nation, an area that has 
more migrant children than any other region in the country, and 
when they featured it one of the business periodicals, it was 
interesting that they selected a child from a migrant family 
who scored 1500 on her SAT, and so good are the SATs and ACT 
scores that they are recruited from the best Ivy League schools 
in the country, East Coast to West Coast, full scholarships and 
97 percent of their graduates are going on to college.
    Folks, there is no doubt in my mind that we are on the 
right track with this legislation. I am pleased to tell you 
that in just a short while this afternoon, less than 45 
minutes, I gathered 40 co-sponsorships to add to the original 
30 sponsors of this legislation for a total of 70 bipartisan 
Members of Congress thinking why, or asking me, what has taken 
you so long?
    Also, I am pleased to report to the Committee that Senator 
Menendez over in the Senate side is offering the mirror 
legislation that we have in the House, and so, I believe that 
we just simply need to raise the level of awareness of the 
condition of our science labs, and get the appropriators to 
build up some courage and invest in our high school labs, and I 
think that things are going to really improve.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Hinojosa follows:]
          Prepared Statement of Representative Ruben Hinojosa
    Good Afternoon. I would like to thank Chairman Baird and Ranking 
Member Ehlers and all of the Members of the Subcommittee for giving me 
the opportunity to present testimony on a pressing need--access to high 
quality laboratory science in our high schools.
    I would especially like to thank my fellow Texan, Congresswoman 
Eddie Bernice Johnson and the Chairman of the Full Committee, 
Congressman Bart Gordon for their advice and support in developing H.R. 
524, the Partnerships for Laboratory Science Act, which we are here to 
discuss today.
    I would also like to express my appreciation to the STEM Education 
community, particularly the chairs of the STEM Education Coalition, 
James Brown of the American Chemical Society, and Jodi Peterson of the 
National Science Teachers Association for their advocacy on behalf of 
opportunities for our young people and for their commitment to ensuring 
that we do not lose future scientists and engineers because they did 
not get preparation in laboratory science in high school.
    We have major holes in our pipeline for preparing future 
professionals in science, technology, engineering, and mathematics--the 
STEM fields. None is more glaring than the lack of preparation for 
college level work for students graduating from high schools that have 
high concentrations of poor and minority students.
    The National Science Foundation commissioned a study by the 
National Research Council on the state of America's High School Labs. I 
would like to draw your attention to two glaring findings in that 
report:

        1.  The current quality of laboratory experiences is poor for 
        most students and educators and researchers do not agree on 
        what constitutes an adequate high school laboratory, hampering 
        the accumulation of research on how to improve labs.

        2.  Schools with higher concentrations of non-Asian minorities 
        and schools with higher concentrations of poor students are 
        less likely to have adequate laboratory facilities than other 
        schools.

    Here are some other things that we know:

        <bullet>  Last spring the American Council on Education issued 
        a report, Increasing the Success of Minority Students in 
        Science and Technology, which identified lack of a rigorous 
        high school curriculum as a major barrier to completing a 
        college degree in the STEM fields.

        <bullet>  The latest science report card included an 
        astonishing figure--only one in four Black or Hispanic students 
        take the three major laboratory sciences--biology, chemistry, 
        and physics--that are the foundation for future STEM work in 
        college.

    With these types of statistics, it should come as no surprise that 
we are losing our competitive edge in producing experts in math, 
science, and engineering. We must redouble our efforts to engage young 
people in these fields early in their academic careers. As we look at a 
broad based, national innovation or competitiveness agenda, we need to 
bring in partners to address this part of the pipeline.
    That is why I introduced the Partnerships for Access to Laboratory 
Science Act. This legislation will establish a pilot program that will 
partner high need school districts with colleges and universities, and 
the private sector to improve high school laboratories as part of a 
comprehensive plan to improve science instruction and student learning 
outcomes.
    This pilot is intended to develop models and test effective 
practices for improving laboratory science in high need schools. It 
will leverage resources from the local community and the private 
sector, and it will build on our base of knowledge of what works in 
teaching science. The legislation is a logical next step forward from 
the National Research Council's report on high school labs.
    Our next generation of scientists and engineers are waiting to be 
discovered in our nation's high schools. Let's make sure that our 
schools are equipped to provide them with the laboratory experiences 
they need to develop their talents and foster a life-long interest in 
science. This is something that we can accomplish together.
    Thank you for allowing me to testify today. I would be happy to 
answer any of your questions.

    Chairman Baird. I thank the gentleman, and unless there are 
any urgent questions on any Members of the Committee, as is the 
custom, we will excuse the gentleman and thank him very much 
for his testimony, for his leadership on this.
    You speak with great passion and experience, and we would 
hope that we could, in all of our districts and across this 
country, replicate the kind of successes you have described.
    Thank you very much, Ruben, for your leadership on this.
    Mr. Hinojosa. Thank you much, sir. Thank you.
    Chairman Baird. At this time, I would like to introduce the 
witnesses on our second panel, and if Mr. Hinojosa wishes to 
stay, he is of course welcome to. If he needs to go, we 
understand that as well.
    First is Dr. Arthur Eisenkraft, a Distinguished Professor 
of Science Education and Director of the Center for Science and 
Math in Context at the University of Massachusetts in Boston. 
He also served on the National Research Council committee that 
authored ``America's Lab Report: Investigations in High School 
Science.''
    Next is Ms. Linda Froschauer, President of the National 
Science Teachers' Association. She is also the K-8 Science 
Department Chair for the Weston Public Schools of Weston, 
Connecticut.
    And Dr. Jerry Mundell is a chemistry Professor at Cleveland 
State University in Cleveland, Ohio, where he serves as 
coordinator of the Freshman Chemistry Committee.
    I would remind our witnesses that spoken testimony is 
limited to five minutes each. You have got those little lights 
there. My dear friend, Dr. Ehlers, and when he was Chair, 
reminded people that at the yellow light, you should pay close 
attention, because when the light turns red, a trapdoor emerges 
beneath your chair, and you will disappear from view. We have 
modified that. It will still apply to the witnesses. It now 
also applies to the Members as well. When we exceed our time 
commitment, there is a trapdoor, and we will be gone two floors 
down and picked up by maintenance later in the day.
    But seriously, we look forward very much to the testimony. 
You have done some great work. We look forward to hearing about 
it, particularly in the concept of the outstanding legislation 
introduced by Mr. Hinojosa.
    Dr. Eisenkraft, please.

                                Panel 2:

STATEMENT OF DR. ARTHUR EISENKRAFT, DISTINGUISHED PROFESSOR OF 
  SCIENCE EDUCATION; DIRECTOR, CENTER OF SCIENCE AND MATH IN 
     CONTEXT (COSMIC), UNIVERSITY OF MASSACHUSETTS, BOSTON

    Dr. Eisenkraft. As the spring baseball and softball season 
begins, I thought it would be good to take a moment to imagine 
two teams getting ready for this season. Both teams have fans 
and baseball players and good coaches, and one of them gets to 
practice with bats and balls, and gets on the field, and the 
other gets to watch videotapes and learn and read books about 
baseball. And we have to wonder, which team would you rather 
have your child on? Who is going to do better this season?
    Well, it is a silly question to ask, because the answer is 
obvious. You want the team who can practice, and yet, the same 
situation, a parallel situation exists today in our high school 
labs, where some students get the opportunity to investigate 
the processes of science by doing science, others get to hear 
about science, listen to people talk about science, and perhaps 
watch videotapes.
    The National Research Council of the National Academy of 
Sciences produced this study at the request of the National 
Science Foundation. Eight of my colleagues and some staff 
members worked on this for a good amount of time, and we agreed 
on a definition of laboratory experiences, and we looked at the 
goals and effectiveness of labs in America.
    The legislation considered here corresponds to two of the 
conclusions reached here, related conclusions. One was that 
labs on the whole are not doing what we thought they would be 
doing. They are poor in most respects. And also that, in spite 
of how poor those labs are, children in poor communities aren't 
even getting those labs, and children who are lower in academic 
ability in affluent school districts are not getting those 
labs, either.
    So, why do we care about lab experiences? Why are the poor 
quality of labs and the unavailability of labs to segments of 
our population concerns? So, no amount of watching other people 
do science is an adequate substitute for doing science one's 
self. For 25 years, I have watched my wife. She takes these two 
sticks, and she goes like this, and then a sweater pops out 
after a certain amount of time. And now, I have watched this 
for 25 years with care, and what are the chances, you think, if 
you gave me some yarn and some knitting needles, I could make a 
sweater? Well, most people don't give me a 50/50 chance or even 
a 10 percent chance. Only the kindest of people give me a one 
percent chance. Most people say you have no chance, and yet, we 
think, though, that students can watch somebody else do 
science, and they will be able to figure out. If I can't do it 
with knitting a sweater, I don't think they will be able to do 
it by doing that. That is one reason we have labs, to provide 
these experiences to students.
    But the other reason is related to the common experience. 
There was a study in the New York Times three years ago which 
showed the learning, the television viewing habits of black and 
white Americans. Out of the top ten television programs, only 
two were in common on both lists. What that meant to me was 
that every time I give a television reference in class, I was 
disenfranchising students in the school who were not like me. 
That same thing exists in all segments of our society, so every 
textbook in science talks about waves in the harmonic 
oscillators or whatever, and they all say like the waves at the 
beach. Well, I will tell you there are kids in Boston and kids 
in Los Angeles who have never been to the beach, and it is only 
five miles from their house. So, I have no idea what kids in 
Nebraska are thinking when they read in the book like the waves 
at the beach.
    What we do in the lab is we give people a tub of water, 
they slosh it back and forth. They make observations, they make 
measurements, they draw conclusions based on that, so that we 
don't have to assume that the only people who have an 
understanding of this are the ones who were lucky enough to 
vacation at the beach in some part of their lives. We need 
these kinds of experiences in order to level the playing field 
of all the students.
    Once we figure out that we need labs, we have to figure out 
how to do them better. How do we integrate them into the 
instructional units? How do we make them meaningful? How do we 
give them a context? How do we use the best learning from the 
cognitive psychology research in order to help them?
    If Olympic teams were performing as poorly as our students 
are in international competitions, there would be a national 
cry for more attention, for improved coaching, for more 
opportunity, for better equipment. We should have the same 
sense of urgency for our students. Instead of just being 
science students, they can be student scientists.
    Thank you very much.
    [The prepared statement of Dr. Eisenkraft follows:]
                Prepared Statement of Arthur Eisenkraft
    As the spring baseball and softball season approaches, we can take 
a moment to imagine two teams getting ready to begin their season. Both 
teams have energetic players, dedicated coaches and supportive fans. 
Both teams have playing manuals, novel strategies and team building 
exercises. The only difference between the teams is that one practices 
using bats, balls and gloves while the other team listens to lectures 
and watches videotapes of professional players. If you wanted your 
children to win, which team would you put them on?
    While it seems silly to think that some parents would want their 
children to play a sport without actually practicing, we have created a 
similar scenario in our high school science classrooms. Students in 
some classrooms investigate the processes of science by performing 
experiments, making measurements and drawing conclusions from this 
data. Students in other classrooms read about the processes of science, 
listen to stories about how experiments are conducted, and watch 
videotapes. If we want our children to be good scientists, which 
classrooms should we put them in?
    The National Research Council of the National Academy of Sciences 
recently completed a study entitled, ``America's Lab Report: 
Investigations in High School Science'' at the request of the National 
Science Foundation. I had the opportunity to serve on that committee 
along with nine other colleagues and staff members of the NRC. The 
committee agreed on a definition of laboratory experience, reviewed the 
research on the goals and effectiveness of laboratory experiences in 
our high schools and arrived at a number of conclusions that are all 
relevant to this committee's deliberations.
    The first conclusion of the committee focused on the need to create 
a definition of laboratory experience to insure that we agree on the 
instruction we are describing and in order to assist the research 
community in future studies. The committee's agreed-upon definition 
that ``Laboratory experiences provide opportunities for students to 
interact directly with the material world (or with data drawn from the 
material world), using the tools, data collection techniques, models 
and theories of science'' includes studies of friction on inclined 
surfaces, of how metals react with acids and observations of a drop of 
water with a microscope. It also recognizes that some laboratory 
experiences do not permit students to record data but instead involve 
analyzing data from large databases. For example, science researchers 
study climatic change by reviewing data recorded over the past 
centuries rather than recording this data themselves. It also does not 
restrict laboratory experiences to a lab room and includes field 
experiences where researchers study the ecology of deserts or rain 
forests.
    The committee also culled from the research a list of goals of 
laboratory experiences which includes:

        <bullet>  Enhancing mastery of subject matter;

        <bullet>  Developing scientific reasoning;

        <bullet>  Understanding the complexity and ambiguity of 
        empirical work;

        <bullet>  Developing practical skills;

        <bullet>  Understanding the nature of science;

        <bullet>  Cultivating interest in science and interest in 
        learning science; and

        <bullet>  Developing teamwork abilities.

    The legislation being considered by the Committee includes 
references to the third conclusion of the study and a related concern: 
that ``[t]he quality of current lab experiences is poor for most 
students,'' and ``[s]tudents in schools with higher concentrations of 
non-Asian minorities spend less time in laboratory instruction than 
students in other schools, and students in lower level science classes 
spend less time in laboratory instruction than those enrolled in more 
advanced science classes.''
    Why do we care about lab experiences in high school classes? Why 
are the poor quality of labs and the unavailability of labs to segments 
of our population concerns?
    No amount of watching other people do science is an adequate 
substitute for doing science oneself. For 25 years, I have watched my 
wife take two sticks and bang them back and forth and to and fro and 
then a sweater pops out. I really have watched at times with interest 
and fixed attention. What are the chances that you could give me 
knitting needles and some yarn and I would produce a sweater? Most 
people tell me that there's not a 50/50 chance, not even a 10 percent 
chance. Only the kindest people give me a one percent chance while most 
people give me no chance at all. If I cannot knit a sweater after 
watching my wife knit for 25 years, why do we expect that our science 
students will be able to conduct experiments when they have only 
observed teacher demonstrations at a distance or, even worse, have only 
viewed pictures of experiments in textbooks?
    In addition to teaching students how to do science, laboratory work 
also creates a common experience among the students that can be used to 
improve discussions and increase achievement. The New York Times 
published an article listing the top ten most viewed television 
programs by whites and blacks in America. There were only two programs 
that appeared on both lists. The important message from that study is 
that every time I used a television reference in class, I 
disenfranchised students who are not like me. When I mentioned a 
specific popular television program in order to engage the students or 
provide an analogy, some students did not understand the reference. In 
most science books about waves, the author describes harmonic motion 
using the example of waves at the beach. While you and I have seen the 
ocean, many students in Boston and Los Angeles have never been to the 
beach and it is only five miles from their home. What is a student in 
Nebraska able to understand when the text reference is to the waves at 
the beach? In our wonderfully diverse schools and society, we cannot 
assume that everybody has seen the same TV programs or the same movies; 
we do not go to the same churches or go on the same vacations; we do 
not have the same experiences. The laboratory provides a place where 
students can observe water waves, measure water waves and draw 
conclusions about water waves. It provides a common experience for all 
students and, in that way, levels the playing field and provides all 
students an entry into the science lesson and does not limit that entry 
to students who have been fortunate enough to have vacationed at a 
beach.
    Once we are convinced of the need for lab experiments in schools, 
then we must also address the quality of those labs. The NRC report is 
quite clear that the ``typical'' lab does not meet the goals of 
laboratory experiences while the ``integrated instructional unit'' 
does. With respect to laboratory experiences, the ``integrated 
instructional units'' should provide for exploration of what prior 
knowledge students bring to the classroom. The lab should then have 
them compare and contrast their prior knowledge with the results of 
their laboratory investigation. The lab should not be taught in 
isolation, but should relate to a larger unit of study. ``Just because 
students do a laboratory activity, they may not understand what they 
have done.'' Moving teachers toward this more viable approach to labs 
requires teacher training--both pre-service and in-service. Teachers 
and curriculum developers should apply the following ``four principles 
of instructional design,'' as enumerated in the report, to make the lab 
experiences ``achieve their intended goals.''

        1.  ``[the labs] are designed with clear learning outcomes in 
        mind,

        2.  they are thoughtfully sequenced into the flow of classroom 
        science instruction,

        3.  they are designed to integrate learning of science content 
        with learning about the processes of science, and

        4.  they incorporate ongoing student reflection and 
        discussion.''

    The present-day ``typical'' lab doesn't produce the intended goals 
of labs because the lab is often not part of a successful instructional 
sequence. The ``typical'' lab is sometimes presented before the 
discussion of the related concepts while other times it is presented 
weeks after the concept is discussed. Many times the lab is delayed 
until the lab room or equipment becomes available. The ``typical'' lab 
often asks students to follow a set of `cookbook' instructions and does 
not mirror the inquiry aspects that can help students learn about and 
experience the processes of science.
    In contrast, the ``integrated instructional unit'' follows the 
design principles outlined above. The labs are used to provide 
experiences to students prior to having them provide explanations of 
those experiences. The teacher role is to help students make sense of 
their data and their explanations and to assist the students in 
coordinating their observations with accepted scientific content and 
understandings.
    Many science frameworks require that students understand the 
concept of density. If you were to pick up a traditional textbook, you 
may find the following paragraph: Density explains why rocks sink and 
wood floats. Density is defined as the mass divided by the volume. D = 
M/V. Let's do a problem: A piece of wood has a mass of four grams and a 
volume of five cm<SUP>3</SUP>. Calculate the density. The text then 
goes on to solve this sample problem followed by a more difficult one 
where the mass and density are given and the student is required to 
calculate the volume. Students may learn the definition of density and 
be able to solve such problems, but have no idea why density is 
important or why we study it. They may or may not then go to the lab to 
actually make measurements of mass and volume and apply the definition. 
And, if they do go to the lab, they often engage in a ``typical'' lab 
where the steps are outlined and the purpose is to confirm what they 
have been told. Student misconceptions related to density are rarely 
addressed. An alternative approach to this concept is used in Active 
Chemistry, an NSF-supported high school science curriculum. Students 
are first asked to compare a kilogram of feathers and a kilogram of 
lead. This helps teachers to gauge their students' prior understanding 
of the concepts. The students then conduct an investigation where they 
measure the mass and volume of different amounts of water. When they 
divide the mass by the volume, they find the ratio is always 1g/
cm<SUP>3</SUP>. They repeat the same investigation with alcohol and 
find that the new ratio is always 0.79 g/cm<SUP>3</SUP>. They repeat 
the same investigation with clay and find the ratio is now always 2.6 
g/cm<SUP>3</SUP>. Students are then asked the question, ``If someone 
were to tell you the mass and volume of a material, could you determine 
if it were water, alcohol or clay.'' Students easily respond, ``Sure. 
You divide the mass by the volume. If the ratio is one, it's water; if 
the ratio is 0.79, it's alcohol; and if the ratio is 2.6, it's clay.'' 
When the teacher asks, ``But what if I had only a small amount of the 
material?'' the students respond, ``Oh the amount doesn't matter. We 
know that because we tried it many different times with different 
amounts and the ratio always stays the same.'' The teacher can then 
explain that because of its importance, we give this ratio a name--we 
call it density. Density is a characteristic property of matter. It's 
one way in which we can determine if you have a diamond or glass ring 
or whether something is solid gold or gold-plated. Of course, the 
students then complete problems with calculations as required on exams. 
In this approach, the concept emerges from the students' experiences in 
the high school lab. The activity precedes the concept introduction and 
the concept precedes the introduction of vocabulary. This more closely 
mirrors how science evolves. Scientists do not invent words and then 
hope that these words will be linked to important and meaningful 
concepts. Unfortunately, too many science texts and science programs 
approach science in this way. In the preferred approach to density, 
students explore their prior understandings, find patterns in the data, 
draw conclusions about the importance of the ratio of mass to volume 
and then return to compare and contrast these findings with their prior 
understandings. In the Active Chemistry unit where this concept is 
introduced, students must also transfer this content knowledge to a new 
domain where they have to apply the concept of density to the creation 
of a special effect for a movie.
    A large part of the NRC study surrounded the question of whether 
labs are effective means of instruction. In other words, do high school 
labs make a difference? After a careful review of the literature, the 
committee attempted to respond to this question by looking at each of 
the goals mentioned above. The review was complicated by the lack of a 
coherent definition of laboratory experience across the studies. In 
addition, many of the studies did not control for all variables nor did 
they take into account how other factors may affect performance. Other 
confounding factors also made the task of literature review and drawing 
conclusions from this review difficult.
    What the Committee was able to conclude was that the ``typical 
laboratory experiences'' did not meet the goals we have for lab 
investigations while the ``integrated instructional units'' showed 
promise in meeting the majority of the goals.
    With regard to the first goal, mastery of subject matter, 
``exposure to these integrated instructional units leads to 
demonstrable gains in student mastery of a number of science topics in 
comparison to more traditional approaches.'' Specifically, ``In 
physics, these subjects include Newtonian mechanics (Wells, Hestenes 
and Swackhamer, 1995; White, 1993); thermodynamics (Songer and Linn, 
1991); electricity (Shaffer and McDermott, 1992); optics (Bell and 
Linn, 2000; Reiner, Pea, and Shulman, 1995); and matter (Lehrer, 
Schaubl, Strom, and Pligge, 2001; Smith, Maclin, Grosslight, and Davis, 
1977; Snir, Smith, and Ra, 2003). Integrated instructional units in 
biology have enhanced student mastery of genetics (Hickey, Kindfield, 
Horwitz, and Christie, 2003) and natural selection (Reiser et al., 
2001). A chemistry unit has led to gains in student understanding of 
stoichiometry (Lynch, 2004).''
    With regard to the second goal of developing scientific reasoning, 
typical laboratory experiments can help students improve on some of the 
aspects of scientific reasoning but fall short in assisting students in 
formulating research questions or designing experiments. In contrast, 
once again, integrated instructional units can assist students in 
developing all aspects of scientific reasoning. ``They can learn to 
design experiments (Schauble et al., 1995; White and Fredericksen, 
1998), make predictions (Friedler, Nachmias, and Linn, 1990), and 
interpret and explain data (Bell and Linn, 2000), and interpret and 
explain data (Bell and Linn, 2000; Coleman, 1998; Hatano and Inagaki, 
1991; Meyer and Woodruff, 1997; Millar, 1998; Rosebery, Warrren, and 
Conant, 1992; Sandoval and Millwood, 2005). Engagement with these 
instructional units has been shown to improve students' abilities to 
recognize discrepancies between predicted and observed outcomes 
(Friedler et al., 1990) and to design good experiments (Dunbar, 1993; 
Kuhn et al., 1992; Schauble et al., 1995; Schauble, Klopfer, and 
Raghavan, 1991).
    With regard to goal three, developing practical skills, there has 
been very little specific study in either typical lab experiences or in 
integrated instructional units. One study did show that girls handle 
lab equipment less frequently than boys and this is associated with 
less interest and less self-confidence in science ability in girls.
    The remaining goals--understanding the nature of science, 
cultivating interest in science and interest in learning science, and 
developing teamwork abilities--follow a similar pattern. The research 
results are not uniformly consistent in whether the typical lab 
experiences or the integrated instructional units help students achieve 
these goals. However, it appears that the integrated instructional 
units show greater promise than the typical lab experiences.
    From the evidence on the effectiveness of labs, the committee 
recommends that specific design principles mentioned earlier can help 
laboratory experiences meet their intended learning goals. In addition, 
the committee concluded that ``a serious research agenda is required to 
build knowledge of how various types of laboratory experiences (within 
the context of science education) may contribute to specific science 
learning outcomes.''
    The introduction of a lab program into a high school is an 
expensive venture. Lab facilities and equipment require capital 
expenditures. The replenishment of supplies requires additional annual 
funds. In addition, safety requirements place limits on the number of 
students that can be properly supervised in a classroom. Too often, 
administrators ask teachers to accept unsafe conditions by packing too 
many students in the lab space. When teachers object, the administrator 
may suggest that we sacrifice the quality of teaching by not providing 
lab experiences at all. This Hobson's choice forces teachers to make a 
bad decision--unsafe conditions or poor instruction. In contrast, high 
schools across the United States support football teams that similarly 
require large expenditures for equipment and subscribe to required 
safety requirements. The football coach is never asked to use sub-
standard helmets or to cancel play. High school science should not be 
considered less important than high school football.
    Michael Faraday is arguably the most accomplished experimental 
physicist of the 19th century. Living as a poor boy in England, Faraday 
was apprenticed at a young age to a bookbinder. After little schooling 
and meager math skills, Faraday went on to solve the largest puzzle of 
his time--how to produce electricity. He accomplished this because of 
his access to laboratories and his hard work and true talent for 
experimentation. What would happen to a Michael Faraday in American 
schools today? As a poor student, he may attend an urban school where 
there are no labs. As a student with few math skills, he may be 
enrolled in a science class for underachieving students with no 
laboratory period. Either way, today's Faraday is denied the 
opportunity to discover his extraordinary talents in the laboratory and 
our society is impoverished as a result.
    We must provide labs to high school students in order to give them 
experience with the processes of science in much the same way that I 
have to practice on knitting needles in order to make a sweater. We 
have to provide labs to students so that they have a common experience 
with which to explore science content. And we must insure that all 
students have equal access to labs regardless of their socio-economic 
status or whether they are enrolled in an honors class or a remedial 
class. These labs should reflect what we know about effective, high 
quality lab instruction as well as what we know about student learning.
    If Olympic teams were performing as poorly as our American students 
are in international competitions, there would be a national cry for 
more attention, for improved coaching, for more opportunity, and for 
better equipment. We should have the same sense of urgency for our 
students. Instead of just being ``science students,'' they can be 
``student scientists.''

REFERENCES:

Eisenkraft, Arthur. 2006. Active Chemistry. Armonk, N.Y. It's About 
        Time.
National Research Council (NRC). 2006. America's Lab Report: 
        Investigations in High School Science. Washington, DC: National 
        Academy Press.
National Science Teachers Association (NSTA). 2006. NSTA Position 
        Statement: The integral role of laboratory investigations in 
        science instruction.
Citations for all research studies quoted here can be found on pages 
        108-115 of America's Lab Report. The text can be accessed at 
        www.nap.edu

                    Biography for Arthur Eisenkraft
    Arthur Eisenkraft is Distinguished Professor of Science Education 
at the University of Massachusetts, Boston, where he also directs the 
Center of Science and Math in Context (COSMIC). He previously taught 
physics and served as science coordinator in New York public school 
districts for 28 years. He is a Past President of the National Science 
Teachers Association and has been involved in a number of its projects, 
creating and chairing the Toshiba ExploraVisions competition and the 
Duracell science scholarship competition. He is Project Director of 
Active Physics, an NSF-supported curriculum project, which is 
introducing physics instruction for the first time to all high school 
students. He is also Project Director of Active Chemistry. He initiated 
U.S. involvement in the International Physics Olympiad, was Academic 
Director for the first eight teams and then served as the Executive 
Director of the XXIV International Physics Olympiad in 1993 when the 
United States hosted the competition for forty participating countries. 
He holds a U.S. patent for an improved vision testing system using 
Fourier optics. At the National Research Council, he was a member of 
the curriculum working group that helped develop the National Science 
Education Standards, the Committee on Learning Research and Educational 
Practice, the Committee on Attracting Science and Mathematics Ph.D.s to 
K-12 Education, and the Committee on Assessing Technological Literacy. 
He is a fellow of the American Association for the Advancement of 
Science (AAAS), a recipient of the Presidential Award for Excellence in 
Science Teaching (1986) and the Disney Science Teacher of the Year 
(1991). He has been recognized for his contributions to science 
education by the American Association of Physics Teachers (AAPT), the 
American Physical Society (APS) and the National Science Teachers 
Association (NSTA). He has a B.S. and M.A. degrees from Stony Brook 
University and a Ph.D. from New York University.

    Chairman Baird. Ms. Froschauer.

   STATEMENT OF MS. LINDA K. FROSCHAUER, PRESIDENT, NATIONAL 
 SCIENCE TEACHERS' ASSOCIATION; K-8 SCIENCE DEPARTMENT CHAIR, 
           WESTON PUBLIC SCHOOLS, WESTON, CONNECTICUT

    Ms. Froschauer. Thank you for this opportunity to present 
testimony on behalf of the National Science Teachers' 
Association. I am Linda Froschauer, and I am the President of 
NSTA. I am also an eighth grade science teacher and Science 
Department Chair in Weston, Connecticut, and I have been a 
science teacher for over 32 years now.
    The National Science Teachers' Association is committed to 
promoting excellence and innovation in science teaching and 
learning for all, and we provide our members with a variety of 
resources and support, including high quality professional 
development, publications, networking opportunities, and 
curriculum materials.
    NSTA strongly supports H.R. 524 and the Partnerships for 
Access to Laboratory Science grants. We applaud the Science 
Committee for realizing the importance of high school 
laboratory experiences, and for its leadership and dedication 
to this issue. The PALS legislation would create a pilot 
program at NSF to study the best ways to train teachers in lab 
instruction, the best way to set up staff and manage labs, and 
ensure that those labs have the best possible equipment, 
materials, and supplies. The PALS bill will help fill our gaps 
in knowledge in a way that will make it possible for a large 
range of schools to benefit from the results of the pilot 
research program.
    So, why is PALS necessary? A 1995 report from the U.S. 
General Accounting Office, titled ``School Facilities: 
America's Schools Not Designed or Equipped for the 21st 
Century,'' found that 42 percent of all schools surveyed 
nationally reported they were not at all well-equipped in the 
area of laboratory science. A second GAO report in 2005, titled 
``Federal Science, Technology, Engineering, and Mathematics 
Programs and Related Trends,'' found that approximately 40 
percent of those college students who left the science fields 
reported some problems related to high school science 
preparation. The under-preparation was often linked to 
problems, such as not understanding calculus, and the lack of 
laboratory experience.
    We know we have many challenges ahead in our efforts to 
reform and strengthen the science education that we provide to 
students. For science to be taught properly and effectively, 
labs must be an integral part of the science curriculum. But in 
many schools, lab science is done poorly or not at all.
    Several days ago, we asked NSTA members via email to tell 
us about the lab experience in their school. Hundreds of 
teachers told us about the poor state of the lab facilities and 
instruction in their schools, and the challenges that they face 
in providing a quality lab experience for students.
    This urban teacher wrote: ``In my urban, inner city school, 
I teach a lab science in an old business room. There are no 
tables, benches, water, or gas service, no sinks, fire 
extinguisher, eyewash stations, fire blankets, or any other 
equipment.'' Another teacher told us: ``I have no specific safe 
area in which to conduct labs. My yearly budget is the same as 
it was 12 years ago. I must purchase all of my equipment and 
supplies. I have no safety equipment other than a portable 
eyewash station and a fire extinguisher. My district claims 
that labs are extracurricular and not mandated by my subject. 
My kids are accustomed to labs using kitchenware or materials I 
have purchased at Wal-Mart. They have no idea how to use 
scientific equipment or even what it looks like due to lack of 
funding.''
    This biology teacher wrote: ``I have been teaching high 
school biology for ten years. I have old microscopes that I 
could actually swap out for Coke bottles and not even notice 
the difference. However, the greatest problem I see is my lack 
of skill in the area of lab investigations. I agree that this 
is the best source of learning that my kids can get, but I 
simply don't have the skill to design these labs. Safety is a 
huge concern. We do not have any rooms to use as actual 
laboratories. Although we have lots of equipment, we have no 
place to safely use it, and few teachers who know how to use 
it. Currently, the one room that had been a lab is used by 
teachers to sell hot chocolate and nachos to students to raise 
money for trips to Washington, D.C., for a very small group of 
students. The lab cannot be used as a lab. They removed the 
tables, and replaced them with desks.''
    And finally, we heard this from a teacher who confesses 
about his own shortcomings in the classroom: ``I have not 
learned how to facilitate real thinking and essential planning 
for authentic lab experiences. I don't know what students 
really need in an introductory chemistry experience at the high 
school level, and I cannot figure out how to teach logical 
thinking and sequencing to over 20 students in a lab at the 
same time.''
    In conclusion, H.R. 524 partnership grants can be 
instrumental in helping schools to develop and maintain a safe, 
well-equipped lab space, and bring ongoing professional 
development to teachers.
    Thank you.
    [The prepared statement of Ms. Froschauer follows:]
               Prepared Statement of Linda K. Froschauer
Mr. Chairman and Members of the Committee

    Thank you for this opportunity to present testimony on behalf of 
the National Science Teachers Association. My name is Linda Froschauer, 
and I am President of the NSTA. For 32 years I have been a science 
teacher and I am currently an 8th grade science teacher and Department 
Chair at the Weston Public Schools in Connecticut.
    The National Science Teachers Association is committed to promoting 
excellence and innovation in science teaching and learning for all. We 
offer members a wide variety of resources and support, including high 
quality professional development, publications, networking 
opportunities, and curriculum materials.
    NSTA strongly supports H.R. 524 and the Partnerships for Access to 
Laboratory Science grants. We applaud the Science Committee for 
realizing the importance of high school laboratory experiences and for 
its leadership and dedication to this issue. As you well know core 
competencies in STEM are absolutely vital to our nation's future in 
this global economy. American schools must cultivate the finest 
scientists, engineers, and technicians--from every part of our 
society--so that we can create the innovations of tomorrow that will 
keep our nation strong.
    The PALS legislation would create a pilot program at NSF to study 
the best ways to train teachers in lab instruction; the best way to set 
up, staff, and manage labs; and ensure that labs have the best possible 
equipment, materials, and supplies. The PALS bill will help fill in our 
gaps in knowledge in a way that will make it possible for a large range 
of schools to benefit from the results of the pilot research program.
    Science educators are firmly committed to the role of the 
laboratory in the teaching and learning of chemistry, physics, biology, 
and earth sciences. The American Chemical Society is similarly 
committed to quality laboratory experiences: their Guidelines for the 
Teaching of High School Chemistry states ``the laboratory experience 
must be an integral part of any meaningful chemistry program. ACS 
recommends that approximately thirty percent of instructional time 
should be devoted to laboratory work.''
    The American Association for the Advancement of Science Project 
2061 Designs for Science Literacy states ``Learning science 
effectively. . .requires direct involvement with phenomena and much 
discussion of how to interpret observations.''
    NSTA has a position paper on laboratory science which was developed 
with a great deal of input from the National Research Council's report 
America's Lab Report, Investigations in High School Science. Both NSTA 
and the NRC believe that quality laboratory experiences provide 
students with opportunities to interact directly with natural phenomena 
and with data collected by others. Developmentally appropriate 
laboratory experiences that integrate labs, lecture, discussion, and 
reading about science are essential for students of all ages and 
ability levels.
    Throughout the process, students should have opportunities to 
design investigations, engage in scientific reasoning, manipulate 
equipment, record data, analyze results, and discuss their findings.
    If done correctly quality lab experiences are an important part of 
inquiry and help students to understand the natural world. NSTA 
recommends that all pre-K-16 teachers of science provide instruction 
with a priority on making observations and gathering evidence, much of 
which students experience in the lab or the field, to help students 
develop a deep understanding of the science content, as well as an 
understanding of the nature of science, the attitudes of science, and 
the skills of scientific reasoning (NRC America's Lab Report, 2006, p. 
127).
    Lab investigations should not be a rote exercise where students 
simply follow directions, as though they were reading a cookbook. 
Properly designed laboratory investigations should:

        <bullet>  have a definite purpose that is communicated clearly 
        to students;

        <bullet>  focus on the processes of science as a way to convey 
        content;

        <bullet>  incorporate ongoing student reflection and 
        discussion; and

        <bullet>  enable students to develop safe and conscientious lab 
        habits and procedures (NRC America Lab Report, 2006, p. 101-
        102).

    Unfortunately, we know that laboratory science is a high-priced 
luxury beyond the reach of far too many public high schools. A 1995 
report from the U.S. General Accounting Office, titled School 
Facilities: America's Schools Not Designed or Equipped for the 21st 
Century, found that 42 percent of all schools surveyed nationally 
reported that they were not at all well-equipped in the area of 
laboratory science. In addition the report found that:

        <bullet>  43 states reported that one-third or more of their 
        schools met functional requirements for laboratory science not 
        well at all.

        <bullet>  49 percent of schools with a minority student 
        population greater than 50 percent reported meeting functional 
        requirements for laboratory science not well at all.

        <bullet>  Over 48 percent of schools where 40 percent of the 
        student population qualified for free or reduced lunch reported 
        meeting functional requirements for laboratory science not at 
        all.

    A second GAO report in 2005 titled Federal Science, Technology, 
Engineering, and Mathematics Programs and Related Trends found that 
``In addition to teacher quality, students' high school preparation in 
mathematics and science was cited by university officials and others as 
affecting students' success in college-level. . .. Researchers found 
that ``approximately 40 percent of those college students who left the 
science fields reported some problems related to high school science 
preparation. The under preparation was often linked to problems such as 
not understanding calculus; lack of laboratory experience or exposure 
to computers; and no introduction to theoretical or to analytical modes 
of thought.''
    NSTA is also very concerned about the equity issue involved with 
the high school laboratory experience. It is imperative that all 
students--including students with academic, remedial, or physical 
needs; gifted and talented students; and English language learners--
have the opportunity to participate in laboratory investigations in a 
safe environment.
    We know we have many challenges ahead in our efforts to reform and 
strengthen the science education we provide to students. We agree with 
Representative Hinojosa that ``Our next generation of scientists and 
engineers are waiting to be discovered in our nation's high schools. 
Let's make sure that our schools are equipped to provide them with the 
laboratory experiences they need to develop their talents and foster a 
life-long interest in science.'' To quote American Chemical Society 
President Dr. Katie Hunt, ``Simply put, when science is taught well 
with adequate resources, it can capture imaginations.''
    For science to be taught properly and effectively, labs must be an 
integral part of the science curriculum. H.R.524 is a positive step 
forward in developing quality lab experiences for all students.
    Many schools would benefit from this pilot program and the research 
that it will bring. To get a sense of the current situation with high 
school labs, on March 5 we asked NSTA members via e-mail, ``What are 
the problems with the lab experience in your school?''
    Hundreds of teachers told us about the current state of the lab 
facilities and instruction in their schools and the challenges they 
face in providing a quality lab experience for students:

        <bullet>  In my urban, inner city school, I teach a lab science 
        in an old business room. There are no tables, benches, water or 
        gas service, sinks, fire extinguisher, eye-wash stations, fire 
        blankets, or other equipment. In addition, while there is a 
        high rate of attrition towards the end of the year, each 
        September starts with 50 students in each class.

        <bullet>  I have no specific, safe area in which to conduct 
        labs. My yearly budget is the same as it was 12 years ago. I 
        must purchase all my own equipment and supplies. I have no 
        safety equipment other than a portable eye-wash station and a 
        fire extinguisher. My district claims labs are 
        ``extracurricular'' and not mandated by my subject. My kids are 
        used to labs using kitchenware or materials purchased at Wal-
        Mart. They have no idea how to use scientific equipment or even 
        what it looks like due to a lack of funding.

        <bullet>  I have been teaching high school biology for ten 
        years. I have old microscopes that I could swap for coke 
        bottles and not notice a difference. However, the greatest 
        problem I see is my lack of skill in the area of lab 
        investigations. I agree that this is the best source of 
        learning that my kids can get, I just simply do not have the 
        skill to design these labs. IF the NSTA wants to make a change 
        in science education, THIS is where it should be done. . 
        .TRAINING.

        <bullet>  My high school building was built in 1970. The budget 
        for yearly supplies has not changed in the six years I have 
        been here. I have a supply budget of $750 per year. I teach 
        between three and four science subjects per year seven classes 
        per day, two of them being chemistry and physics. I have 
        absolutely no supplies to teach electricity and magnetism or 
        optics. My chemistry supplies are even worse. My lab facilities 
        are set up for physics, but I am expected to teach chemistry in 
        low benches. I don't know a chemist who will use a Bunsen 
        burner sitting down. Hence, I do not teach the labs that 
        require Bunsen burners because I feel it is unsafe to use the 
        burners in my room. I also do not have a ventilation hood in my 
        room.

        <bullet>  We do not have any rooms to use as actual 
        laboratories. Although we have lots of equipment, we have no 
        place to safely use it and few teachers who know how to use it. 
        Currently the one room that had been a lab is used by teachers 
        to sell hot chocolate and nachos to students to raise money for 
        trips to Washington, DC, for a very small group of students. . 
        .the lab cannot be used as a lab. . .they removed the lab 
        tables and installed desks for all the students.

        <bullet>  I have not learned how to facilitate real thinking 
        and essential planning for authentic lab experiences. I don't 
        know what students really need in an introductory chemistry 
        experience at the high school level, and I cannot figure out 
        how to teach logical thinking and sequencing to 20+ students in 
        lab at the same time. My time management skills are lacking. 
        There's much more, too.

        <bullet>  I teach chemistry and Earth science in a room with 
        six lab tables; it was originally designed to be a physics lab 
        room. There is electricity to the tables, but it doesn't work. 
        There are not sinks, therefore no eye-washes; there are no gas 
        outlets. The sink at my instructors table has the water turned 
        off and the gas turned off. We were given a budget of $5000 for 
        each department last year, but the orders were not filled 
        because. . .who knows? I have not received the supplies I 
        ordered for eight out of the last 10 years. When I first took 
        over this class-lab room and associated storeroom, there was a 
        great amount of equipment and glassware and old kits and a 
        little of everything. It is not possible to do any other than 
        the most elementary labs at this school. It would be unsafe and 
        probably criminally liable to attempt most chemistry labs. The 
        fire extinguisher doesn't work.

        <bullet>  While I do not teach high school science currently 
        but do teach in a two-year community college, I see many 
        students entering with virtually no lab experience. While some 
        students come quite prepared, it's very frustrating for me to 
        have students coming into a college biology class with no 
        knowledge of basic lab equipment and techniques, such as using 
        beakers, graduated cylinders, pipettes, or even basic 
        microscopy skills.

        <bullet>  Our school does not provide enough funding for lab 
        experiments. In addition, senior members of the department do 
        not believe that other than AP students and some honors 
        classes--should have access to lab experiments. Therefore the 
        classes I teach--college bound and special education--have 
        little to no money that goes towards lab science in the Biology 
        classroom. Furthermore, the set up of the classroom also is a 
        problem when it comes time to do lab experiments.

        <bullet>  I teach biology in a portable without any sinks, no 
        storage, and only four outlets. It's such a challenge to put 
        together a real lab. My portable is far away from the real 
        science labs so it's hard to even get materials over here. 
        There's no prep area out here so I have to go to one of the 
        main buildings to prep. Yet those prep rooms are not easily 
        accessed if you don't have an attached classroom. My room has 
        carpet so I am reluctant to use many chemicals because they are 
        difficult to clean up if spilled.

        <bullet>  Our school has minimal funding for improving the 
        quality of lab sciences. Individual teachers are encouraged to 
        write for grants using their own time without pay. Three of our 
        four science rooms do not have eye-wash stations or proper 
        venting equipment. There is no interest in funding the purchase 
        of electronic data collection equipment/computer based labs by 
        the administration. Little effort is made in our district to 
        train teachers to improve the quality of lab experiments and 
        the necessary follow-up assessment.

        <bullet>  Several things need to be addressed. (1.) The large 
        amount of time to get a lab ready, carried out and cleaned up. 
        Teachers need more time or a paid lab assistant. (2.) The 
        equipment and supplies are lacking due to inadequate budgets. 
        (3.) I was not trained or shown how to conduct labs. I had to 
        learn it on my own. (4.) Students have never been taught how to 
        behave in a lab. They think it's playtime not learning time. 
        (5.) Six teachers share one lab. Scheduling is a major problem.

        <bullet>  We do not have adequate materials for labs at our 
        school. We have one set of materials for each discipline (Earth 
        science, biology, chemistry and physics) and five or six 
        teachers trying to use the materials for their class. The 
        budget for our science department (high school of about 1,900 
        students and growing) is $6,000/year.

        <bullet>  Besides funding for lab science, my own school has 
        1964 construction, which means, the science rooms were built in 
        a time when the accepted teaching method was direct instruction 
        and not inquiry based learning. There is no space for ongoing 
        projects.

        <bullet>  If this country is serious about educating our 
        children in science, then we need to provide designated 
        laboratory teachers and updated equipment to these 50-year-old 
        facilities. Administrators need to be adequately trained or 
        have someone who is, to give advice and support. Each school 
        needs a lab budget, and not be dependent on the pockets of the 
        struggling teacher.

        <bullet>  I am our district's K-12 science coordinator and have 
        taught high school for many years in our district and in other 
        districts. The two biggest problems I see (and hear from other 
        teachers) too many students in classes and not being supported 
        financially. Some principals feel science is too expensive. 
        Currently due to the lack of support our AP Chemistry labs are 
        taught by the classroom teachers at the local university.

        <bullet>  I teacher upper middle school Science. We have NO 
        equipment to do Science labs. Our school is five years old and 
        no equipment was bought when the school was built. There is no 
        way I can I do labs without the basic equipment. The students 
        beg for lab work but I have to say no because lack of funding.

        <bullet>  In our school district, the quality of lab 
        experiences are hindered by the large class sizes (36 in a 
        class). Along with the large class sizes comes unsafe 
        conditions, including lack of space. A number of teachers also 
        lack lab experience and are not qualified to lead labs 
        correctly. Our district would benefit from teacher trainings on 
        lab experience and labs that meet State standards.

        <bullet>  The major problems are lack of storage space for 
        equipment and lack of funds to repair equipment or replace 
        equipment with more modern and student accessible equipment.

        <bullet>  When our building was redesigned, a dedicated room 
        for chemical storage was left off of the plans. We have had to 
        divide our chemical stockroom among three prep rooms, which 
        after two years are still not equipped with the storage and 
        safety features needed. The rooms designated for Chemistry do 
        not have fume-hoods installed, making it hard to do many of 
        experiments safely. In addition, a majority of our science 
        classes have at least 30 students in a classroom, with some lab 
        classes having between 40 and 50 students in one classroom. 
        With poor organization of resources, a large student-to-teacher 
        ratio, chemistry teachers not highly qualified to teach the 
        subject, and numerous safety issues, labs become exceptionally 
        difficult to do.

        <bullet>  My district has newly refurbished laboratories. I am 
        qualified to supervise labs as I have both industry and 
        academic experience in chemistry. However, even though the lab 
        is set up to safely accommodate 24 students, the school 
        administration insists this is just a guideline and insists of 
        overcrowding the labs with up to 28 students. This makes it 
        hazardous for the students, as they are crowded together. It 
        also makes it hard for me to supervise the students, especially 
        in classes where there are students with IEP's or other 
        learning issues. One teacher cannot safely supervise that many 
        students in a lab involving chemicals, hot plates, burners, and 
        glassware. In fact, in a class with multiple IEP's, twenty four 
        students is too many for one teacher to supervise. There needs 
        to be a maximum of students per teacher (allowing for weighting 
        of students with IEP's) in a lab environment, or schools should 
        hire lab aides to help teachers if that number is exceeded.

        <bullet>  Many teachers in my district, which is well-funded 
        and well equipped, lack the confidence to conduct lab 
        experiences. They most often have poor classroom management and 
        therefore believe that the students would not practice safety 
        and that someone could be injured. Another factor is several 
        science teachers are also coaches and therefore will not 
        conduct lab experiences with their students because coaching 
        takes priority over instruction. They say that they don't have 
        time to set up the labs.

        <bullet>  I believe lab science should play a key role in 
        science education. Our main problem is lack of funding. We are 
        not allowed to charge lab fees and our budget is $3,000 for 
        1,500 students (seven teachers). Over half of our budget is 
        used for paper (copies) so less than $1,500 is available for 
        science. That doesn't buy much. It limits not only what we do 
        but also limits the use of technology in science. We have 
        highly qualified teachers to teach labs but not the funds to 
        support them. We just recently cleaned closest to literally get 
        rid of the old equipment from the 1950's and 1960's which was 
        the last time we had large amounts of funding.

        <bullet>  We are assigned 37+ students per class making it 
        difficult if not impossible to provide worthwhile safe 
        laboratory experiences. Additionally, the lack of preparation 
        time and no lab technician support means if a science teacher 
        wants to provide his/her students with a laboratory experience 
        he/she must work late into the evening to properly prepare.

        <bullet>  Most of the problems center around getting the 
        individual teacher to accept that labs are integral to the 
        understanding of science. Most of our freshmen science teachers 
        do not want to bother with setting up the lab equipment or 
        monitoring students while they do the lab. It's much easier to 
        maintain control while the students are in their seats taking 
        notes.

        <bullet>  I teach Chemistry and Physics at a Catholic High 
        School. We are hampered by a lack of resources. I have lots of 
        glassware and other materials that do not wear out, but when I 
        came here last year we had no chemicals. I have ordered a bare 
        minimum of chemicals, but our budget is small. Physics is in a 
        little better shape, but most of the equipment is circa 1970's.

        <bullet>  We currently have three chemistry labs for seven 
        teachers, one physics lab for three teachers, and five biology 
        labs for eight teachers. Class sizes frequently are 30+ 
        students for biology, 26+ for chemistry, and 24+ for physics. 
        The main problem we face is lack of space and time to do labs. 
        Our classes are overcrowded to the extent that the chemistry 
        teachers have cut back on labs due to safety concerns. Our 
        class time for labs has been cut from 74 minutes to 48 minutes 
        in all general and honors classes, and this also impacts 
        ability to do labs, especially as we share lab space with other 
        teachers. To compound these issues, in 2008 we are bringing the 
        9th grade into the high school (we are currently 10-12), and 
        this will add about 700 students into the building who will all 
        be required to take lab science classes. We as a staff have no 
        idea how we are going to manage this. Many of us are doing 
        paper ``labs'' and computerized lab activities because of our 
        safety concerns.

        <bullet>  I love labs, but I am not given very much money to 
        spend. Last year I was able to purchase several LAB-Aids kits. 
        This year I was not allowed to purchase refill kits for them. 
        The schools should be forced to allow a set amount of money for 
        the purchase of equipment and supplies. I can't afford to pay 
        out-of-pocket. I took over physics this year. It has been 
        taught as a math class for several years. I asked for lab 
        equipment and was turned down.

        <bullet>  Maybe I am in the minority but we have a fantastic 
        situation. Our district just remodeled our science labs. We 
        have a great space and good equipment. Our district not only 
        supports but encourages science.

        <bullet>  We do not have the funds needed to do labs as we 
        should. I am lucky if I get to do one or two actual labs for 
        each of our seven units. We do lots of hands-on activities, but 
        they just aren't the same as experimentation.

        <bullet>  In the past we have had funding for the equipment but 
        recent budget cuts have prevented us from buying the annual 
        consumables, so the equipment just sits there.

        <bullet>  I am currently an 8th grade Science Teacher and 
        attempting to be as much help to High School Science Teachers 
        as I can. I have taught for 30 years and have watched as 
        funding, lab facilities and equipment have declined. As a 
        Middle School teacher we could assist the high school with 
        preparation for the science experience of all students, however 
        our funding has been drastically cut along with the liability 
        issues of labs. Simple science is difficult when we cannot even 
        use pond water and are now required to purchase expensive 
        purchased samples or pre-prepared slides. If science suppliers 
        would assist with some financial breaks for the middle schools 
        it would help our cause. I am sitting with microscopes which we 
        cannot use, aquariums that remain empty as districts take a 
        close look at liability of mold, mildew and ventilation.

        <bullet>  As a private school, we have all the necessary 
        equipment and materials to run excellent labs. All our teachers 
        are trained as lab instructors, and we make sure even the 
        general students perform labs at least three times a month. 
        That being said, teenagers do tend to push the limits at every 
        chance. I have at least five ``firebugs'' who look for 
        opportunities to do something dangerous. Consequently, constant 
        vigilance is required. It is exhausting to set up, and most 
        set-ups need to be refreshed between classes. However, the 
        nature of science requires lab experiences for a true inquiry 
        approach. I can see why school systems would get rid of labs 
        altogether, relying on on-line simulations, but it is certainly 
        worth the effort. Perhaps having a specific lab instructor who 
        would run and maintain the labs, similar to a college 
        environment, would work.

        <bullet>  Current situation: one biology lab, 22 bio classes; 
        one chemistry lab, 19 chemistry classes; no physics lab; bio 
        and chem labs are unsafe, run-down, ill-equipped. Future 
        (2007): new science wing to be built, 15 lab/classroom combos, 
        fully equipped and technologically up-to-date; science 
        educators expect science education here to go from mediocre at 
        best to hands-on, interactive, interesting, creative, . . .a 
        very positive experience. There is a definite need for 
        professional development in science labs. Today's teachers have 
        so little experience because of the conditions offered at most 
        public high schools.

        <bullet>  One of the biggest problems I have faced in my 
        teaching is that I have too many students in my room to safely 
        do lab activities. I have one room with the lab area around the 
        perimeter of the room and desks in the middle of the room. I 
        have so many students in my room that the desks are pushed 
        right up next to the lab counters on all sides. To do any 
        activity where the students need to stand at the lab benches, 
        the desks need to be pushed to the center and then there is not 
        enough room for all students to stand at the counters together. 
        In teaching the physics portion of 9th grade physical science I 
        am fortunate that I have not had a lab that uses the gas, I 
        would be quite hesitant to do so in this room because I do not 
        believe it could be done safely. There is no recourse in my 
        district for the number of students in my class; in fact I have 
        heard that next year they are going to try to put more in my 
        room. Due to this space constraint, I have done fewer lab 
        activities.

        <bullet>  Our primary hurdles are lack of funds and equipment. 
        Since we are a small, rural district with limited industry and 
        local income, our budget for the entire science program is 
        $1200. This is barely enough to replace consumables in chem, 
        phys sci, and biology, much less order the more expensive 
        equipment. In addition, emphasis is more readily placed on math 
        and English as these are the primary areas of standardized 
        testing. Additionally, our class size is sometimes such that 
        labs must be limited due to space and safety issues. For the 
        most part, our science teachers do a good job of implementing 
        labs to the best of our ability.

        <bullet>  As a suburban district in an affluent community, we 
        have very frequent lab opportunities--we have lab activities 
        two to four times per week in biology. We recognize the 
        importance of laboratory experience and are limited primarily 
        by time available.

        <bullet>  Actually--we have a wonderful lab experience for our 
        middle school. One day a week we have students for 80 minutes 
        to do lab--this is balanced against their history class--so on 
        the alternate day they have history for 80 minutes. Works well 
        and our kids leave having a good grasp of good laboratory 
        practices.

        <bullet>  My middle school does not have a lab. I have to use 
        two desks side by side to get a large enough flat area so 
        students can do what I call desk-top labs. Money of course is 
        also a problem so to get around that I sometimes ask students 
        to bring in items from home such as different liquids so we can 
        use them to test for pH. I sometimes have students work in 
        groups of four to cut back on expenses when the ideal would be 
        to work in groups of two. Due to lack of space in the 
        classroom, labs requiring extended observation time can't be 
        done. So students complete these as at-home experiments. I 
        require them to bring in the evidence to prove the task was 
        actually done along with a completed lab guide. I avoid 
        dangerous chemicals and use votive candles if flames are 
        necessary.

        <bullet>  We have a wonderful lab science program for our 7-12 
        grade students. It is set-up as a college model with a full-
        time lab instructor who preps, runs, and grades the lab work. 
        Lab procedures are consistently followed, and students know 
        what to expect. Labs are scheduled on a regular basis since 
        classroom teachers do not have to make time to set-up/take-down 
        labs.

        <bullet>  The biggest obstacle to providing quality lab 
        experiences for science students in my high school is funding. 
        The budget simply does not allow for in depth or multiple labs. 
        We must pick and choose which labs to do, which is often 
        determined by which labs are the cheapest. I feel that we are 
        doing a disservice to our kids in this area.

        <bullet>  Science labs used to meet for a double lab period 
        once a week. That got cut in the 90's at many schools due to 
        mandated testing for education reform. It is very difficult to 
        run a lab investigation in a 45-minute or one hour format. You 
        end up carrying it into the next class and losing the point. 
        Also many science or lab aid position have been cut requiring 
        teachers to do all prepping, make solutions, order supplies, 
        etc. This is very time consuming never mind grading, planning 
        and of course teaching.

        <bullet>  As a chemistry teacher I am, as expected, adamantly 
        in favor of integrating laboratory experience into my 
        curricula. I am fortunate in that I work in a high school with 
        a once spectacular laboratory facility that was for over 20 
        years maintained by a trained laboratory technician. Four years 
        ago that technician's position was cut, and since then the 
        state of our lab has declined. Routine maintenance of equipment 
        as well as preparation for every experiment is left to the 
        instructors; in effect, doubling or tripling our work, 
        depending on the experiment performed. Given these conditions, 
        many teachers have opted to eliminate many of the more 
        challenging experiments their students once performed. Wouldn't 
        it be great if we science teachers received a check in the mail 
        to spend on equipment rather than a half nod and a heap of 
        rhetoric from our elected officials?

        <bullet>  No money for lab supplies. . .I buy almost all my lab 
        supplies out of my own pocket. . .and there is very little 
        equipment. . .I improvise all the time, using recycled bottles 
        and jars from home, and plastic cups from the supermarket.

        <bullet>  My chemistry lab is very outdated and worn out. The 
        space provided is nowhere near the suggestions for science lab 
        classrooms today. There is only one exit which has 22 desks 
        between it and the lab area. I have to constantly fight to keep 
        my eye-wash and shower working ``just in case!'' The drains 
        leak and are wrapped with towels, which is someone's idea of 
        preventing slow leaks. It is very much inadequate, but that 
        doesn't keep me from doing a lot of lab work. I just try to 
        keep it very benign as much as possible. It would be GREAT to 
        have a renovated lab. I have done research and put in the 
        request, but funding is tight and it is just not in the 
        school's budget.

        <bullet>  I know the materials I want/need to teach my content, 
        but I am inhibited by unnecessary (way stricter than State 
        standards) safety requirements for chemicals by my district, 
        lack of funding for equipment, disinterest by district 
        administrators in providing resources for ``regular'' (not 
        honors) classes. And it was only last year that safety 
        equipment (proper eye-washes, showers. . .) were installed in 
        the classrooms. I didn't have those in my prep room. The fume 
        hoods don't all work. The lab benches aren't bolted to the 
        floor and get bumped around easily. THERE ARE TOO MANY KIDS IN 
        MY CLASSES.

        <bullet>  I agree that lab science is a much-needed partner 
        with other science deliveries. In my school, I try to do at 
        least one lab a week (either myself or as a class). Our school 
        was built in 1954; there are many experiments that simply 
        aren't safe in our laboratory. We have no fume hoods and 
        ventilation is poor at best. Also, I am given a $1,000 budget 
        per year to spend on all classroom consumables including 
        chemicals. I can only order (restock) certain chemicals every 
        year as ordering just 30 items would put me over budget.

        <bullet>  Though we are lacking some supplies, for the most 
        part we have the bulk of items that we need to do basic 
        experiments. However, many teachers do not do them for lack of 
        understanding the science and fear of labs with ``tough,'' 
        hard-to-teach kids. Labs take a lot of teacher effort, 
        especially labs that work (like inquiry). Many of my colleagues 
        are not held accountable for the lab component; therefore, they 
        do not do the lab component.

    In conclusion, H.R. 524 partnership grants can be instrumental in 
helping schools to develop and maintain a safe, well-equipped lab space 
and bring ongoing professional development to teachers. Research-based 
pilot programs will help fill in the gaps in our knowledge about how 
best to employ labs. The best practices and materials developed in this 
pilot program can be used as a model by stakeholders who want to 
strengthen high school lab science in their communities. We call on 
Congress to support this innovative legislation to improve science 
education.

                   Biography for Linda K. Froschauer
National Science Teachers Association President, 2006-2007

    Linda K. Froschauer, K-8 Science Department Chair at the Weston 
Public Schools, in Weston Connecticut, is President of the National 
Science Teachers Association (NSTA). She began her one-year term on 
June 1, 2006.
    Froschauer has been a devoted teacher and dedicated leader in 
science education. She began her teaching career as an elementary 
school teacher in Matteson, Illinois; moved on to middle level teaching 
at the Greenwich Public Schools, in Greenwich, Connecticut; and has 
been with the Weston Public Schools since 1985. She combines her work 
in the classroom with a leadership role in her school, serving as 
grades K-8 Science Department Chair/mentor teacher. Outside the 
classroom she has worked as an instructor for Chicago's Museum of 
Science and Industry; as a writer/consultant for many publications; and 
as a field editor, reviewer, and consultant for numerous organizations.
    For more than 30 years, Froschauer has been a leader and active 
member of NSTA. In 1976, she was named the first Preschool/Elementary 
Division Director to serve on the NSTA Board of Directors. She later 
worked on many NSTA committees, including the International Convention 
Planning Committee, the Preschool/Elementary Committee, and the 
Informal Education Committee, and she has chaired both the Awards and 
Recognition Committee and the Committee on Nominations. She also has 
served as Middle Level Division Director, worked on the Committee and 
Board Operations Task Force, and led the development of NSTA's first 
Family Science Day, which was held in conjunction with the NSTA 
National Convention in Boston.
    Froschauer's devotion to science education is evidenced by her 
involvement in numerous other professional organizations. She has 
served as President of the Connecticut Science Supervisors Association 
(CSSA), the National Middle Level Science Teachers Association 
(NMLSTA), and the Council for Elementary Science International (CESI). 
She is also a member of the Connecticut Academy for Education in 
Mathematics, Science, and Technology; the Association of Presidential 
Awardees in Science Teaching; and the Society of Elementary 
Presidential Awardees. She has been actively involved in Project 2061, 
a national effort to improve science education sponsored by the 
American Association for the Advancement of Science.
    Froschauer was chosen as a Connecticut Science Educators Fellow and 
named Weston Teacher of the Year in 1999. Her other awards and 
accomplishments include receiving the NSTA Distinguished Teaching 
Award, Middle Level, in 2001; National Board for Professional Teaching 
Standards certification, also in 2001; the CSSA Charles Simone Award 
for Outstanding Leadership in Science Education in 1998; a Presidential 
Award for Excellence in Mathematics and Science Teaching in 1993; and 
the Educational Press Association of America's Distinguished 
Achievement Award in 1991.
    Froschauer earned a BS degree in education from Northern Illinois 
University, an MA in science teaching from Governors State University, 
and a sixth-year degree in curriculum and supervision from Southern 
Connecticut State University.

    Chairman Baird. Dr. Mundell.

    STATEMENT OF DR. JERRY MUNDELL, PROFESSOR OF CHEMISTRY, 
                   CLEVELAND STATE UNIVERSITY

    Dr. Mundell. While preparing my testimony for the 
Subcommittee, I decided to confront my general chemistry class 
with some background questions concerning their high school 
laboratory experiences. My survey consisted of several 
questions, to which the 66 students responded with their 
clickers. Here are some samples of the questions and their 
responses.
    ``Did the lab portion of your high school course help you 
to better understand chemical concepts?'' 44 percent agreed. 
``Did the lab portion of your high school chemistry course 
stimulate your interest in chemistry?'' Now, only 33 percent 
agreed. And finally, ``Did the lab portion of your high school 
chemistry course help to prepare you for your college chemistry 
course?'' Only 21 percent agreed.
    Early in my career, first as an industrial research chemist 
with the Lubrizol Corporation, and later, while working on my 
doctorate degree at Case Western, I found laboratory routine 
and research the most vibrant part of my work. Whether it was a 
problem involving chemical synthesis or the employment of 
investigative techniques to characterize substances, the 
physical pursuit of the science was always pulling me back into 
the laboratory. It is the nature of this physical pursuit which 
can inform and sometimes enlighten, and within the proper 
setting, such as a high school laboratory, even provide 
opportunities of growth and inspiration.
    Traditionally, these opportunities do not occur in the 
normal experiences found in high school science labs, which are 
highly structured around classical laboratory techniques and 
chemical syntheses. It should be our chief concern to replace 
these traditional high school lab exercises with experiences of 
exploration and discovery. With the participation of local 
colleges and universities, such laboratory experiences may be 
developed and readily accessible to area high school students.
    An example of such a program is now ongoing at Cleveland 
State University. CSU is participating in a five year, NSF-
funded program which provides such opportunities for its 
undergraduate students. The Research Experience to Enhance 
Learning Program, which is REEL, addresses the issue of student 
experiencing the discipline of chemistry through participation 
in actual research situations. Instead of performing a series 
of lab experiments listed on a syllabus, the students learn to 
design and execute green chemistry experiments performed on 
local environmental samples.
    During the course of the semester, students utilize many of 
the topics covered in the corresponding general chemistry 
lecture, in addition to advanced laboratory instrumentation and 
techniques unavailable to students enrolled in traditional 
general chemistry lab courses.
    The assessment at the end of the course is based on 
individual PowerPoint presentations of each student's research, 
accompanied by their written write-ups. Students also are 
encouraged to publish in research journals such as Journal of 
Undergraduate Research, as well as making presentations at the 
real chemistry symposiums and local ACS meetings-in-miniature.
    Although this particular program is set up on the 
university campus, with additional funding and proper training 
of school teachers, this type of program could be offered at a 
secondary school level. Within this type of laboratory 
experience, students are soon to acquire a sense of ownership 
of the subject. Participating in actual research situations 
instills maturity in students. They are no longer just learning 
for the grade, but instead, applying their knowledge to real 
life problem solving, but this depth of experience, for 
students would only come, with a similar depth of commitment 
from the teachers.
    In conclusion, I strongly support House Bill H.R. 524, 
especially subparagraph (B), article 5, which identifies a need 
of funding for professional development and training for 
teachers.
    As important as supplies, equipment, and well-constructed 
laboratories are in the implementation of a valuable teaching 
program, I strongly believe that the failure of our high school 
students to successfully participate in college level science 
curriculum is, in part, due to our failure to inspire them. 
This inspiration can only come from well-informed teachers with 
strong attachments to their subjects. Good science teachers 
need to be well-grounded in their turf. They need opportunities 
outside of the normal coursework to continually develop not 
only as teachers, but also, as scientists, and this can evolve 
by building closer associations between the secondary school 
teachers and the college and university research faculty.
    By implementing programs which enable school teachers to 
actively participate in summer research opportunities within 
their research, area universities and high school teachers 
would better be able to appreciate and understand the nature of 
science.
    Thank you.
    [The prepared statement of Dr. Mundell follows:]
                  Prepared Statement of Jerry Mundell
    My position with the Chemistry Department at Cleveland State 
University (CSU) has provided me the opportunities to assess the status 
and effect of high school science laboratory instruction from two 
perspectives: 1) the performances of the students, both prior to and as 
they enter into post secondary science education; and 2) the 
information I have received either directly from public school teachers 
whom I have taught as part of the Ohio Teaching licensure program or 
those teachers I have interacted with in several CSU/Cleveland School 
programs. Although most of my teaching at Cleveland State University 
has been involved with students enrolled in freshman chemistry courses, 
I have had many occasions to instruct high school students (CSU Upward 
Bound Summer Program), Middle School Teachers (Mathematics and Science 
Partnership) and High School Teachers (Cleveland Teaching Leadership 
Program). Through these interactions with both students and teachers, 
including my participation in programs such as the regional 
Northeastern Ohio Center for Excellence, NEOCEx, and the CSU funded 9-
16 Committee, I believe myself to be adequately prepared to both 
comment and recommend on the subject of the importance of science 
laboratory experience in the education of high school students.
    While preparing my testimony for this subcommittee, I decided to 
put the numbers and studies aside for a moment and indulge the thoughts 
of those primarily affected by this situation. Instead of starting the 
8:30 lecture with a graded quiz question projected on the two screens 
at the front of the lecture hall, I confronted my general chemistry 
class with some background questions concerning their high school 
laboratory experiences. My survey consisted of several questions, to 
which the students would respond with their ``clickers'' (i.e., 
electronic personal response transmitters).
    Of the 66 students who participated in the survey 85 percent took a 
high school chemistry course which contained a laboratory component. 
Although 79 percent of those students felt that their lab instructors 
were well informed, only 62 percent believed the lab instructions were 
clear and comprehensive, and only 56 percent thought the labs were well 
equipped. Having addressed the instruction and equipment aspects of the 
courses, I used the final three questions of the survey to summarize 
their high school lab experiences:

        1)  Did the lab portion of the course help you to better 
        understand chemical concepts? (44 percent agreed);

        2)  Did the lab portion of your high school chemistry course 
        stimulate your interest in chemistry? (33 percent agreed);

        3)  and finally, Did the lab portion of your high school 
        chemistry course help to prepare you for your college chemistry 
        course? (21 percent agreed).

    Although this survey only represented a minor population of all 
those CSU students enrolled in the College of Science, the results 
parallel the current national trend of students receiving substandard 
or insufficient high school science laboratory experience. Although I 
presently do not have the tools to accurately quantify the success or 
failure on individual high school chemistry lab courses, I do have 
first hand experience with incoming freshmen who generally lack the 
sufficient interest or skills to properly engage in a college chemistry 
course.
    Each fall semester, the final grades of my General Chemistry course 
reflect approximately 25 percent of the class receiving letter grades 
of D, F, or W (a withdrawal from the course). The 2006 Book of Trends, 
published by Cleveland State University, indicates similar final grades 
in other freshman science courses: College Chemistry courses (Chemistry 
for non-science majors) with 33-36 percent of the class receiving 
letter grades of D, F, or W; and entry level Biology courses with 
similar results. Results which indicate that 25-36 percent lack the 
sufficient foundation in science to successfully compete in post 
secondary science courses.
    Similar trends are occurring at the university level at CSU. As an 
urban university, consisting of 18 percent Black and two percent 
Hispanic student enrollments, retention rates of 41 percent and 36 
percent respectively are of much concern.
    In a response, to better prepare high school students for the 
academic challenges of post-secondary education, CSU has aligned itself 
to the teachers in primary and secondary institutions by participation 
in grant programs designed to better prepare the public school students 
for post-secondary education:

        1)  Teaching by Inquiry: Nature of Science, Academic Standards, 
        and Supervising of Instruction. PI: Dr. Frank Johns, Professor 
        Emeritus, College of Education, Cleveland State University.

                 Teaching secondary school principals to observe and 
                evaluate science lab teaching.

        2)  Partners for Success. PI: Dr. Joann Goodell, Associate 
        Professor, College of Education, Cleveland State University, 
        and Facilitator: Dr. Robert Ferguson, Assistant Professor, 
        College of Education, Cleveland State University.

                 Augmentation of content knowledge and including 
                laboratory experience. The program consists of four 
                meeting sessions over the academic year and a one week 
                session during the summer, with a two commitment by 
                each cohort.

        3)  Urban Stream Scholars. PI: Dr. Robert Ferguson, Assistant 
        Professor, College of Education, Cleveland State University, 
        and Dr. Michael Walton, Associate Professor, College of 
        Science, Cleveland State University.

                 This program trains secondary school teachers to 
                perform science labs and incorporate research methods 
                and hands-on activities into the classroom (start-up 
                date: summer 2007).

        4)  Mathematics and Science Partnership. PI: Dr. Joann Goodell, 
        Associate Professor, Cleveland State University.

                 CSU is working in collaboration with Youngstown 
                University, John Carroll University, and the University 
                of Akron to educate both Middle School and High School 
                Teachers in the content of laboratory training in the 
                sciences.

        5)  NEOCEx. PI: Dr. Joann Goodell, Associate Professor, College 
        of Education, Cleveland State University; CoPI: Dr. Roland 
        Pourdavood, Associate Professor, College of Education, 
        Cleveland State University.

                 Northeastern Ohio Research Center for Excellence 
                consists of four universities: Kent State University, 
                University of Akron, Youngstown State University, and 
                Cleveland State University. The focus of the research 
                is to understand and interpret how the Learning of 
                Science and Mathematics effects high school students' 
                attitudes and disposition toward science.

    Throughout my years as a teacher of freshman chemistry, I had tried 
various ways of engaging the interest and commitment of my students 
enrolled in one of the traditional lab courses with varying degrees of 
success.
    An instructive laboratory exercise doesn't need to be costly, 
dangerous, or steeped in convoluted instructions and incomprehensible 
scientific concepts. With a laboratory balance, a package of toy 
balloons, and a three dollar package of dry ice, I have conducted the 
following exercise in an ordinary classroom and illuminated a couple 
dozen students about the nature of gas behavior, the function of 
proportionality constants, the implication of significant figures, and 
the importance of group work.
    Before conducting the exercise, the students break into groups of 
three and each group receives a balloon. The groups are instructed to 
record the mass of the balloons before the instructor places 
approximately one gram of dry ice into the balloons. The groups then 
tie off the end of their balloons before recording the mass of the 
balloons containing the dry ice. After the dry ice has completely 
sublimed and the balloons are completely inflated the groups are 
instructed to measure and record the circumferences of the balloons.
    With the mass of the dry ice and the circumference measurements, 
students are instructed to 1) calculate the volume of the balloons 
using the proper numbers of significant figures, and 2) determine the 
value of the proportionality constant in the equation relating the 
volume to the mass of dry ice. Another sample of dry ice in a weighed 
balloon is given to each group. Using the derived equations, each group 
is instructed to calculate the expected volume their balloon should 
produce. Finally, the calculated volumes are compared to the resultant 
volumes.
    I have presided over this exercise in classrooms of high school 
students, classrooms of college students, and classrooms of school 
teachers with similar positive results in all.
    The high school laboratory experience can also be set up with real 
research situations in which the students learn to function and think 
as scientists. Early in my career, first as an industrial research 
chemist with the Lubrizol Corporation and later while working on my 
doctorate degree at Case Western Reserve University, I found laboratory 
routine and research the most vibrant part of my work. Whether it was a 
problem involving chemical synthesis or the employment of investigative 
techniques to characterize substances, the physical pursuit of the 
science was always pulling me back into the laboratory. It is the 
nature of this physical pursuit which can inform, and sometimes 
enlighten, and within the proper setting, such as a high school 
laboratory, even provide opportunities of growth and inspiration.
    Traditionally these opportunities cannot be found in the normal 
experiences found in high school science labs, which are highly 
structured around classical laboratory techniques and chemical 
synthesis. These exercises although instructive, don't motivate or 
inspire. It should be our chief concern to replace the traditional high 
school lab exercises with experiences of exploration and discovery. 
With the participation of local colleges and universities, such 
laboratory experiences maybe developed and readily accessible to area 
high school students.
    An example of such a program is now ongoing at CSU: The Chemistry 
Department of Cleveland State University is participating in a five-
year NSF funded program, which provides such opportunities for its 
undergraduate students. The Research Experience to Enhance Learning 
program addresses the issue of students experiencing the discipline of 
Chemistry through participation in actual research situations. Instead 
of performing a series of lab ``experiments'' listed on a syllabus, the 
students learn to design and execute green chemistry experiments 
performed on local environmental samples. At this time, the focus of 
the work is on the presence of PAH, polyaromatic hydrocarbons--
pollutants that exist in the Cleveland community. During the course of 
the semester, students utilize many of the topics covered in the 
corresponding General Chemistry lecture in addition to advanced 
laboratory instrumentation and techniques unavailable to students 
enrolled in traditional general chemistry lab courses. The assessment 
at the end of the course is based on individual Power Point 
presentations of each student's research accompanied by their written 
reports. Students are also encouraged to publish their research in the 
Journal of Undergraduate Research as well as making presentations at 
the REEL Chemistry symposiums and local ACS Meetings in Miniature.
    Although this particular program is set up on a university campus, 
with additional funding and proper training of school teachers, this 
type of program could be offered at a secondary school level. Within 
this type of laboratory experience, students are soon to acquire a 
sense of ownership of the subject. Participating in actual research 
situations instills maturity in students. They are no longer just 
learning for the grade, but instead applying their knowledge to real 
life problem-solving. But this depth of experience for the students 
would only come with a similar depth of commitment from the teachers.
    In conclusion, I strongly support House Bill H.R. 524 goals of 
enhancing the teaching of laboratory teaching in the high schools. Of 
the articles under subparagraph B, article v, which identifies the need 
of funding for professional development and training for teachers. As 
important as supplies, equipment, and well constructed laboratories are 
in the implementation of a viable teaching program, I strongly believe 
that the failure of our high school students to successfully 
participate in college level science curriculum is, in part, due to our 
failure to inspire them. This inspiration will only come from well 
informed teachers with strong attachments to their subjects. But I 
further recommend that a continuous series of science courses will not 
remedy this situation. Good science teachers need to be well grounded 
in their turf. They need opportunities outside of the normal course 
work to continually develop not only as teachers, but also as 
scientists. And this can evolve by building closer associations between 
the secondary school teachers and the college and university research 
faculty. By implementing programs which enable school teachers to 
actively participate in summer research opportunities within their area 
universities, high school teachers would be better able to appreciate 
and understand the nature of science.

                      Biography for Jerry Mundell
    Dr. Jerry Mundell is the Coordinator of the Freshman Chemistry 
Committee in the Chemistry Department at Cleveland State University in 
Cleveland, Ohio. Within his work experience at CSU, he has written a 
Peer-Led lecture notebook for the students of general chemistry, 
produced two laboratory course preparation CDs, and introduced new 
teaching technologies into the Chemistry Department. Dr. Mundell 
graduated from the University of Massachusetts, Amherst with a B.S. in 
Chemistry in 1980 and received his Ph.D. in Inorganic Chemistry from 
Case Western Reserve University in 1990.
    During his teaching career, Dr. Mundell also won several awards for 
his commentaries on Cleveland Public Radio where he was a weekly 
commentator for three and a half years. Dr. Mundell currently lives in 
Cleveland Heights, Ohio with his wife, Deborah and his two step-
children, Christina and Sean.

                               Discussion

    Chairman Baird. I thank our witnesses. We will now begin a 
round of questioning, and I will begin by yielding myself five 
minutes, and then, we will yield to Mr. Hall after that.
    I find this very troubling, as I am sure you do. Ms. 
Froschauer, your description of the teachers who had no labs, 
no rooms to conduct the labs, what did they do? You know, in 
absence of this, what did they do to try to help young people 
learn science?
    Ms. Froschauer. Well, obviously, if they have no lab 
facilities, it certainly isn't lab-oriented. However, I do 
believe that most teachers know the value of the experiences of 
working with data, and if they are not able to have the 
students experience collection of data and analysis on their 
own, then they probably provide them with datasets, and they 
provide them with experiences that can be as closely matched to 
those that they would have in a laboratory experience, without 
actually having the manipulatives and being able to participate 
in that kind of experience.
    Of course, all of that has to be connected, really, to the 
strong content, and be an integral part of what they are 
teaching, and not in isolation of what they are teaching, and 
so, even constructing that can be a challenge for some 
teachers.
    Chairman Baird. So, to some extent, it is comparable to Dr. 
Eisenkraft's opening analogy of which they watch baseball, but 
they don't get to play it.
    Ms. Froschauer. Exactly. Yes.
    Chairman Baird. If any of you could address this. You know, 
I was fortunate. I ended up with a doctorate in science, and 
was fortunate to have good science classes along the way, with 
pretty good labs, and can remember my basic physics and 
chemistry and biology classes, and we had good equipment, even 
though it was a rural, small, not super wealthy district.
    But one of my questions is, it seems like we spend money, 
and NSF has, in the past, funded the development of curricula, 
we come up with models, and you folks do good research, and I 
appreciate the work you do. I have read much of that report. 
How do we disseminate it, A, so that actually, it has an impact 
not just in the schools, but in the teaching institutions, the 
colleges of education, so that when we understand what works to 
teach science, it is actually disseminated in some meaningful 
way, and then, how do we sustain it?
    And I open that up to any of the three.
    Dr. Eisenkraft. Well, I think that certainly, the NRC 
report, on America's Lab Report, brings it to people's 
attention. I think that studies which show that we are not 
doing as well in science brings it to people's attention.
    I think the issue you are speaking of, on one part, is just 
the lack of a sense of urgency to improve education in America, 
and this is as much our responsibility as it is your 
responsibility in Congress, and the Nation's responsibility, 
that somehow, we can't seem to capture the sense of urgency 
that I know we all share, that we have to turn this around or 
it is going to be too late to make the changes.
    The National Science Foundation does a wonderful job of 
funding good research curriculum projects, and what happens is 
it does get disseminated. People do end up utilizing that 
research in their teaching, and they look for better direction. 
The other direction which is very positive is that, in fact, 
the research projects do get incorporated into all forms of 
curriculum, and the question is how do we find the best way to 
communicate this?
    I think there are meetings--the National Science Teachers' 
Association has conferences. I think professional development 
through teachers, all of these opportunities to get the word 
out, through journals and things like that, to teachers and 
communities. But I think the larger issue is really the sense 
of urgency.
    Chairman Baird. A societal and cultural issue; the point 
being you could do your work and identify the problem, we could 
pass Mr. Hinojosa's bill, come up with some model programs, but 
unless the society embraces the mission, it will ultimately not 
be as successful as it could be.
    Dr. Eisenkraft. We all have to make choices, as you said in 
your opening testimony, about where we are going to spend our 
limited dollars, and often, that decision is very interesting. 
Do we fund a science lab, in fact, where we say well, we can't 
have the safety equipment? When we fund a football team, those 
helmets are $250. Nobody says well, let us do it without 
helmets this year, or we will buy the cheap helmets. They don't 
skimp there, but somehow, in the science lab, we skimp. So, it 
is really a question of priorities, urgency, what are the long 
range benefits.
    Chairman Baird. Dr. Mundell, you looked like you might have 
a comment.
    Dr. Mundell. I was suggesting this. As far as dissemination 
of the information, there is work that is being done now 
throughout Cleveland, at least, of establishing websites where 
a curriculum is basically tested, and put out there for the 
other school teachers in the Cleveland School District. I did 
some work with NEOSEC a couple of years ago, where we had 
actually come up with short, safe experiments that could be 
done in most classroom, also inexpensive experiments, and then, 
they would be posted at the website for teachers to basically 
access.
    So, that is one way to get some of this information out.
    Chairman Baird. I appreciate that. I have many more 
questions, but I will yield now as a courtesy to my good friend 
and colleague, Mr. Hall, for five minutes.
    Mr. Hall. Thank you, Mr. Chairman, and thank you for your 
very kind and thoughtful offers of cooperation. It is not 
unusual for you to do that, and Bart Gordon has also extended 
the same thing. We have a good committee, and a good thing 
going. Honored to have men as leaders with your outlook and 
attitude. I look forward to working with you.
    I have a question for Ms. Froschauer. Your testimony 
indicates that a lot of teachers are paying out of pocket for 
lab equipment, and I want to congratulate Mr. Hinojosa on his 
bill, and his usual support in pushing for science and math, 
and every one of us ought to have our shoulder to the wheel to 
try to set aside the bad statistics we have of an even number 
of engineers with China, India, and many other countries; just 
unbelievable distortion there of--and I don't know who has been 
negligent in pushing that, or pressing for it, but I know we 
are on that avenue now, and I am wondering just how we are 
going to catch up, and it will be through testimony like yours 
here, and leaders like our Chairman and Dr. Ehlers.
    I want to go into this a minute. I know we are focusing on 
high schools today, but in my own district, in Texarkana, 
Texas, they have built a science-focused elementary school. I 
dedicated it a week ago, I believe. And it is very unusual. All 
the classrooms are labs, and students are exposed to scientific 
ideas and concepts early in their educational life, and it is a 
joint venture between Texas A&M Texarkana and the Texarkana 
School District.
    Teachers at the elementary school and A&M graduate students 
and professors work together to develop curricula, mentor 
students, and create an innovative lab experience, and I thank 
the committee and the chairman for bringing these witnesses 
here today to tell us why they think lab science is important, 
and how they believe a true partnership between NSF, 
educational institutions, and industry can work together to 
create the same type of innovative lab science experience in 
high school.
    But it is kind of hard for me to understand why teachers 
are paying out of their own pockets, and why aren't states and 
school districts providing funds for lab equipment? Is there 
some state law? Do certain states have certain laws that they 
can't invade that province, or are they using it all for the 
athletic thrust, which is kind of suggested there by some of 
your testimony? Are there federal programs already available to 
help the purchase of lab equipment for schools?
    Ms. Froschauer.
    Ms. Froschauer. Thank you for this opportunity, Mr. Hall.
    Actually, teachers have been paying from their own pockets 
for many years, not just in science, but some teachers are even 
buying pencils for their students. It is exacerbated by the 
topics that we cover in science, and by the costs of hands-on 
manipulatives, as well as consumables that makes it an 
unusually large amount of money, particularly for science 
teachers.
    There is no law against giving teachers money to buy 
equipment, but it seems that right now, in particular, there is 
a great deal of emphasis on other subject areas, and not as 
much emphasis on science. And you probably realize that English 
and math have more emphasis currently than does science, and 
so, there are more resources that are going into those subject 
areas, especially at the elementary level, than is going into 
science.
    What PALS is going to do for us is it is going to provide 
us with research, much needed research, on how labs are 
utilized, and what is needed for quality laboratory experiences 
for students in high school. However, that research can also 
impact and influence what is happening in middle schools, and 
then, of course, elementary schools as well. And if we are 
going to expand this resolution, we could expand it, and add a 
lot more money to it, and perhaps consider researching into 
middle schools as well. But high school is a great place to 
start, and it will provide us with the kind of research that we 
need. We have many questions, and they can be addressed through 
PALS.
    Mr. Hall. Are there federal programs already available to 
help with the purchase of lab equipment for schools, and how 
does Congressman Hinojosa's bill work in with that? Is there 
already a program that he is adding to?
    Ms. Froschauer. I have no knowledge of any program that he 
is adding to.
    Mr. Hall. If other federal programs already exist, I just 
wonder how this legislation we are considering today is going 
to be an extension of those programs, or how it works in with 
it. Do any of the three of you have that answer?
    Ms. Froschauer. This is independent of anything else that 
is happening.
    Mr. Hall. Okay. Well, I think it is a great thrust, and I 
guess I will ask all of the witnesses, is a lack of laboratory 
equipment a bigger problem than adequate teacher training in 
how to use these labs?
    Ms. Froschauer. It is hard to say which one you would put 
first. Absolutely, teachers need a great deal more training, 
but even with training, what do you do if you don't have the 
equipment, and if you are given the equipment and you don't 
have the training, you don't know what to do with it, either. 
So, it is--both of them go very much hand in hand. They both 
are vitally important.
    Mr. Hall. Well, I think it is a good time, and I think the 
Congressman has a great time to introduce this bill because I 
feel an urge and a move to support teachers, rather than to 
suppress them, and put them first on an agenda because we are 
seeking math and science and trying to catch up.
    Even on the Social Security thrust, I have been voting for 
extra Social Security for teachers, to pay them for what we 
didn't pay them for the last 50 years. I am not sure that I am 
on sound ground, dipping into the Social Security fund, because 
it is supposed to go broke some time in the next 10 or 15 
years, but there is a move toward teachers and appreciation of 
teachers, just like 9/11 brought us to really appreciate 
firemen and policemen, you know, it brought us a new look at 
them. I think there is a new look at education, a new look at 
science, and a new look at those of you who delve a little bit 
further than the normal, ordinary school teacher.
    I am of a school teaching family. My only wife, my only 
sister, my only mother were all teachers. I was a school 
superintendent at one time, and I just know that we are at a 
time when the timing is right on his bill, and I sure support 
it, and am going to be a co-sponsor on it, if I am not already, 
but I just wonder if there is already a Federal Government 
program, are we already putting some money in there? If we are, 
is this more, is this going to support it, will this add to it? 
I think those are things we will probably have some testimony 
on later, Mr. Chairman.
    Chairman Baird. We will indeed.
    Mr. Hall. I think my time is up. I yield back. And I thank 
you very much for the time. Dr. Ehlers, thank you for letting 
me go. I have a teacher I have to meet up in my office in a few 
minutes. She is my sister.
    Chairman Baird. I thank Superintendent Hall for his 
testimony. We learn something new about Ralph every day, and it 
is always a delight.
    And Mr. Carnahan will return in a moment. In his absence, I 
will yield five minutes to Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. First of all, Dr. 
Eisenkraft, I was interested in your Olympics analogy, and yes, 
obviously, if our failings were that publicly known, we would 
take action.
    But they are certainly well-known. I think people are 
catching on. But the problem is deeper than that, because a 
recent poll of parents asked them whether they thought it was 
more important for kids to learn more math and science, and 
almost universally, they said yes, yes we definitely need to. 
Then, they were asked if they thought their kids were learning 
enough. Oh, yeah, they are learning enough. In other words, 
they know it in a theoretical sense, but not in a practical, 
absolute sense.
    Dr. Eisenkraft, one of your conclusions was that due to a 
lack of a standardized definition of a lab, it is very hard to 
measure the impact of lab experiences on learning. In view of 
that statement, and that is why in particular, I wanted to 
refer to Carl Wieman's work, which is about simulation rather 
than labs. What do you think of that? What kind of work would 
be necessary to implement successful lab experiences? What kind 
of research do you think has to be done, and would you see that 
being done under the auspices of this bill or not?
    Dr. Eisenkraft. Well, thank you Congressman Ehlers. The 
question about the definition of labs, we required a definition 
because it was very difficult for us to interpret all of the 
research which has been done. People were defining labs in all 
sorts of ways, or not defining them, and so, you are trying to 
say these are research reports telling us the same thing, and 
it wasn't obvious, because they weren't defining labs the same 
way.
    So, the definition, which seems to have hit some resonance 
with the community, that is in the NRC report, speaks to a way 
of defining labs, so that we can then begin a research agenda, 
and answer some of the questions that are noted there.
    We certainly want to know, because of the expense and the 
time, and all sorts of concerns having to do with labs, is that 
money being well-spent? How does it result in student 
achievement, student interest in science, student motivations, 
understanding the processes of science, how does it help us in 
terms of people moving into STEM careers?
    And we have to look at different elements of that, but the 
lab itself, as the report says, cannot be an isolated portion 
of the environment. So, what happens too often is a teacher in 
a school which does have labs, they end up going to the lab 
when it is available. So I will go two weeks ahead, before I 
teach the topic, or I will go three weeks after I taught the 
topic, or I will go when somebody else isn't using the 
equipment, instead of saying no, no, no, we have learning 
models, instructional models, which help people to understand 
better, that we know help with student achievement. The idea is 
that you go to the lab so that you can have experiences, take 
data, and then, draw conclusions on data you have taken, and 
then, see ``How did I interpret it?'' ``How did the scientists 
interpret it?'' Is it the same way? How do I get over 
misconception?
    So, the question is when you do a lab experiment, there are 
a number of different factors you can research on. Certainly, 
there is the content question. There is the affective domain, 
interest in science, do you want to take more science? I think 
the questions that Dr. Mundell asked his students, was the lab 
an integral part of your program? What did it mean to do a lab? 
Was the lab actually you doing it, or was it you watching 
somebody else do it? So, there are a host of questions.
    Carl Wieman served on the committee with us, and it was a 
wonderful privilege, and I have known him for a number of 
years, and he is extremely dedicated to education, and his 
generosity of his time and, actually, his Nobel money to help 
create those simulations, is quite an inspiration, I think, to 
all scientists.
    The question is, when you provide simulations, this report 
did not speak to that. Could simulations replace laboratory 
experiments? It is not part of the research. It was not part of 
our charge. There is a question, though, of that simulation, in 
helping people understand that it is part of a larger, 
integrated program. But we could do simulations of all sorts of 
experiments on computers, but the scientists don't do that now. 
They still say no, I have to go into the lab. I have to get 
dirty to make sure I understand what nature is telling me, not 
what some programmer is telling me.
    So, there is probably not one tool for one job, but this 
idea of the integrated instructional unit, the good 
instructional model which uses direct instruction, labs, 
computer simulations, but in a way that we know enhanced 
education is what it is all about, and we have to do research 
on that to show it can be done.
    It has been shown in small studies. What I think this bill 
allows us to do is to scale it up to a larger program, to show 
it can be effective, and then we hope people will take notice 
and say, I want to do that. And then, people come onboard with 
the schools of education and the high schools.
    Mr. Ehlers. Well, thank you, and I have a follow-up, but my 
time has expired, so----
    Chairman Baird. Go ahead.
    Mr. Ehlers. Oh. My followup is just based on what you just 
said, and this, I would like to address to all witnesses. Is 
the lack of laboratory equipment a bigger problem, well, I am 
sorry, not--let me restate it.
    We have been fighting very hard to maintain an educational 
mission at the National Science Foundation, and it has been a 
very tough go, because that portion of the budget has been 
decreasing year by year. I think we have finally reversed it, 
through exercising every bit of political clout that we have.
    But now, the question in this bill comes along. This is 
going to be a pilot program, and probably the best place for it 
is NSF, in terms of doing a pilot program, doing the 
evaluation, which NSF is very good at, and so forth. Where do 
you think it is most appropriately housed at NSF, and secondly, 
if it proves to be a good program, should it still be housed at 
NSF, or should it be moved over to the Department of Education, 
or handled in some other way?
    So, we will go backwards. This time, Dr. Mundell, do you 
want to start first?
    Dr. Eisenkraft. If they are passing to me, I can certainly 
speak to it.
    Mr. Ehlers. Oh, okay. I will let you.
    Dr. Eisenkraft. NSF is certainly the right place to kick 
off this study. Well, the Directorate of--well, the research 
and K-12 now, the new Director of Research, K-12, but the 
Department of Educational Curriculum Development, or the 
Instructional Materials Development. They changed their names, 
but you know, instructional materials development, DR K-12 is 
the new proposal. They have put together the $43 million that 
way.
    No, they certainly have the expertise. They have the peer 
review. They can find the quality studies that have to be done 
because of that expertise from all the possibilities that are 
out there.
    The question is, what happens when the bill gets passed, so 
we will be optimistic here, and we will have some followup 
studies over the next few years, and we will get money, and we 
will show that this can be effective, and we recognize the 
importance of this for all students, so we have to make sure 
that students in impoverished areas, minority students, get 
this opportunity to do labs, and we find out that in the 
affluent schools, that the students who didn't perform well 
academically, they should also get an opportunity to have labs.
    Then, labs are expensive. You know, this kickoff $5 million 
is very nice for a small section of Boston, much less the 
United States, when you are talking about the kind of magnitude 
that different reports brought before this committee, the 
Gathering Storm or whatever, have talked about in terms of the 
money needed, I don't know who should handle that kind of 
money, or how it is best allocated. But to turn around science 
labs in America is an expensive venture.
    Mr. Ehlers. Yes, and that is where I wanted to look at the 
next step. Should it stay at NSF with its limited funds, in 
which case, we could try to increase funding, or move it to the 
Department of Education, and have them handle it, or maybe the 
Defense Department, since they have all the money?
    Dr. Eisenkraft. I think that the peer review process is a 
very important component of having quality research done, and I 
think that NSF is best situated to do that quality research at 
this point.
    Mr. Ehlers. Thank you very much.
    Chairman Baird. Thank you, Dr. Ehlers. Mr. Carnahan is 
recognized for five minutes.
    Mr. Carnahan. Thank you, Mr. Chairman. It is good to be 
here for this inaugural hearing, and congratulations again to 
you, and to the Ranking Member. I think you are going to bring 
some very much needed bipartisan leadership in this research 
area.
    I guess I just want to also say it is great to see the 
emphasis on the committee adding the science education into the 
title. I think it really deserves that, and again, makes a 
strong statement that it is going to be an important focus of 
the Subcommittee and the Full Committee.
    I don't have the science background, like these other 
gentlemen have, trained as a lawyer, don't hold that against 
me. But my area in St. Louis has some of the top public and 
private research institutions in the country. This is very 
important to them. You don't have to convince me. I mean, we 
have seen all the studies that talk about how we are lagging 
behind. We have seen how important it is to capture the 
students early and get that interest perked.
    I have heard from the business community how they are 
worried about the workforce of the future. I guess my question, 
and one of the things that has been frustrating to me is while 
all these things seem so obvious and necessary, there tends to 
be this kind of general hesitancy of people in the science 
community to get involved in politics. And I don't know if that 
is just a characteristic of people that are in science or 
engineering, but you know, how can we do a better job? I have 
talked to many different science and engineering groups about 
how important it is for them to speak up, in terms of this 
public policy debate.
    And I guess my question is how can we best really mobilize 
and make the case to the scientists and the engineers and the 
teachers to get involved in this debate, so they can do a 
better job?
    Ms. Froschauer. Well, this is one way to do it, isn't it?
    Mr. Carnahan. It is. It is.
    Ms. Froschauer. It is. And actually, I believe that you 
will see that teachers are becoming more involved politically, 
that we do realize the importance of legislation that can 
support the efforts and the things that we are doing in the 
classroom every day. And without the strong legislation, that 
we probably cannot accomplish our goals to really teach all 
children well. And so, and I think that NCLB actually has 
helped some of that, by the way, because it has really put it 
out front. It puts something in front of us that was 
legislative, that now we are focusing on, and so we realize the 
power of legislation. Certainly, teachers are not the most 
vocal people when it comes to individuals and pronouncing what 
their needs are. Obviously, we would have more in education, I 
believe, if they were, but I do believe that we are moving 
forward.
    NSTA actually just started our legislative efforts within 
the last couple of decades. We were not that legislatively 
alert, and we were not paying attention to what was going on on 
the Hill the way we should have been, but our members really 
had an outcry, and said we need to get involved. We need to 
find out about the bills that are being passed on the Hill, and 
what kinds of things are happening to us legislatively. And 
that is why we now have a very strong legislative component.
    Mr. Carnahan. Well, thank you for getting your group 
involved. I really appreciate that.
    Dr. Eisenkraft. Just to mention the National Science 
Teachers' Association will have about 15,000 science teachers 
coming to St. Louis in a few weeks to learn about science, and 
to advocate for better instruction. I think that Members, your 
colleagues, Congressman Ehlers, Congressman Baird, Rush Holt, 
Congressman Holt, I mean, these are scientists who have made 
this transition, and recognize the importance of politics. Most 
scientists don't understand how it works. They are very good at 
doing their bench science, but it just makes sense, school 
teachers, it just makes sense you should support education. I 
don't understand what we are supposed to do out there to--how 
do you convince people when it makes sense to everybody? And 
so, we don't know how to do that.
    And I think teachers, in general, are very shy about 
getting involved in politics, because they play this very 
sensitive role with children, and they have to keep their 
personal views to themselves as they explain scientific 
concepts to their students. And for them to take on an advocacy 
role, often they find that in conflict with their primary 
responsibility of teaching, and they think that if they get 
caught up in politics, that that might detract from what they 
are supposed to be doing.
    It is not true. I mean, we all have to be involved in our 
communities, involved in the Nation--but the question of how do 
you become an advocate, and how do you do that, and how do you 
make that step. I think for most scientists, most teachers, we 
don't know how. We just say everybody agrees with us, we need 
better schools, we need better teaching. We need more 
equipment. We need labs. If everybody understands it, how do we 
get them to do it? That is the part that I think you are 
asking, why don't teachers move to the next step, scientists 
move to the next step? I don't think they know how.
    Mr. Carnahan. Doctor.
    Dr. Mundell. Yes, thank you, sir.
    Well, part of what I am doing here is kind of representing 
the university community and how we are affected by this. And 
one of the questions that was directed, and the information I 
got was how do I assess this problem.
    The assessment is in our decline of enrollment, retention 
of our students, okay. Our minorities are down to about a 44 
percent retention rate at CSU, and a lot of this goes to the 
lack of preparation and foundation they have, when they come 
into our university. And I have a feeling this is probably a 
widespread phenomenon. But anyway, I think where part of this 
can come out--where part of the support for this can come out 
is out of the university community.
    We are taking an interest in Cleveland, and I imagine 
elsewhere, they are, too, trying to smooth transitions from 
high school into college, and also, working more with secondary 
school teachers, as well as primary and middle school teachers. 
As a matter of fact, every summer for the last several years, I 
have been teaching chemistry to middle school teachers for 
their licensure.
    What I would just like to say about this is, I feel like 
this is part of the movement to get things more into the 
public's consciousness, that coming out of the community 
universities and community colleges, they are concerned for 
where their students are coming from, and why they are so 
poorly equipped to start the rigors of college academia.
    Anything you want to add to that, or--okay. Thank you.
    Mr. Carnahan. Well, I just want to close by saying thank 
you all for being here, and working with your networks and your 
organizations to really encourage that, because I think to the 
extent we can encourage more scientists and engineers to speak 
out as part of this public discussion, and to make the case, it 
really helps the public policy-makers in pushing that, and 
making it a priority here in Washington, and in State and local 
governments around the country.
    So, thank you all very much.
    Chairman Baird. Thank you, Mr. Carnahan, and I thank the 
witnesses. I want to ask a series of followup questions, if I 
may, and I know Dr. Ehlers has a couple more as well.
    I want to do a little housekeeping first of all. Dr. Ehlers 
mentioned that by using all the political clout we have, we 
have been able to reverse some of the decline in funding, and 
some of the redirection. I want to give Dr. Ehlers credit for 
some of that, along with the Chair of this committee, Mr. 
Gordon. Together, it is the two of them who have really led the 
fight in that, and they deserve the credit, and frankly, the 
thanks of the scientific community for their leadership in 
that. They certainly have my gratitude.
    I also want to mention that a resource for the science 
teachers is the website of this very committee. Last year, this 
committee made a big push to try to provide science research, 
or science teaching and experiential tools on its website. I 
don't know if we have a link to the physics program Dr. Ehlers 
referenced, but we should try to add at least a link to that. 
So, I would encourage you to perhaps let your fellow teachers 
know, especially at this upcoming convention.
    I was hoping, Dr. Eisenkraft, that you were going to say 
that 15,000 teachers were descending not on St. Louis, but--was 
it St. Louis you said? But on Washington, D.C. You are in the 
wrong town. St. Louis is a lovely place, but----
    Dr. Eisenkraft. As I said, we don't quite know how to do 
it.
    Chairman Baird. Yes. Well, we need some geography teachers.
    Mr. Carnahan. Mr. Chairman, they are coming to my hometown.
    Chairman Baird. Sorry. I see why that was--well, it is a 
fine place, St. Louis, and they have got some great 
representatives, as you know. But I mean it actually fairly 
seriously, Ms. Froschauer. If every Member of Congress who had 
teachers in the kind of straits that you have described from 
the testimonials you reported to us knew that, I think we would 
be appalled, and I think many Members may not know the 
condition of those schools. I make it a personal point to visit 
every high school in my district every two years, if I can. It 
is some 40 plus, almost 50 schools, and I think they are 
relatively well-equipped.
    I confess I haven't been to the science labs of all of 
them, but I have been to the schools, but if your teachers are 
in those straits, please encourage them to let their Member of 
Congress know that, because from my perspective, and you know, 
as we reference a lot in this committee, we will reference it 
many more times, the Beyond the Gathering Storm report, one of 
the fairly soft, but I found intriguing proposals alluded to in 
there is the notion of a voluntary national science curriculum, 
where you take best practices, and it becomes a voluntary 
national curriculum, and part of why I feel so interested in 
that is that you heard, I thought, compelling testimony by Mr. 
Hinojosa, about how a relatively disadvantaged area can just 
fall off the radar screen.
    In an ideal world, in an ideal country, let us not say 
world necessarily, but in an ideal country, at least, your 
access to a quality science education should not depend on the 
accident of where your parents happen to live or work. Every 
kid should have access to equal quality education, and one of 
the things that intrigues me about a voluntary national 
curriculum would be that possibly, we could use research like 
that defined in Mr. Hinojosa's experience, some of the work Dr. 
Eisenkraft has done, come up with a national curriculum, pair 
the teaching pedagogy with the equipment, and those schools 
that participate would have access to that.
    I would welcome your thoughts on whether that is a dumb 
idea or a good idea, or what the problems might be, and then 
open that up to anybody.
    Ms. Froschauer. One of the problems right now with what is 
happening with science curriculum is that, as you probably 
realize, we have a couple of documents that really do provide 
us with the structure of the content, and those two documents 
are the National Science Education Standards and Benchmarks for 
Science Literacy, out of Project 2061 with AAAS. Those two 
documents really are the documents that have been used by the 
states, as now, they have addressed content issues and 
curriculum issues for NCLB. And so, now, we have states who 
have also developed their own set of standards, benchmarks, 
frameworks, they are calling them a variety of different 
things.
    And so, we have a lot of people who have come up with a 
variety of solutions to what they believe is good science, and 
they--I believe they will fight for their beliefs in what is 
good science. And so, as you can probably imagine, it would be 
very difficult to come up with a national curriculum, per se.
    However, there is a problem that we think can be addressed. 
Right now, through Benchmarks for Science Literacy and the 
National Science Education Standards, we have many, many points 
that need to be addressed within the science curriculum, 
content-specific. Too much, no one can possibly teach 
everything that is in those documents, because they are so 
hefty, there is so much there. And so, what we believe can be 
done that might help teach us a great deal is to narrow those 
points down into a more manageable number, something that we 
really consider the essential anchors of science education, and 
that that might help teachers.
    So, not quite the national curriculum that you are thinking 
about, but if there were a manageable number of content points 
or anchors that teachers were looking at, then they could 
develop around them a richer curriculum, rather than trying to 
spread out the curriculum over many points.
    Chairman Baird. Especially as we talk about lab experience, 
and Dr. Ehlers and I have probably got lots of firsthand 
experience with this. When you look at these bullet points, it 
seems like the notion behind teaching science is to make sure 
we have covered certain key topic areas. To be perfectly 
honest, in my own experience, it would be far less important to 
cover all the topic areas than to give me a hands-on experience 
with the process, and a way of solving and approaching 
problems, that involves hypothesis generation, well data 
review, hypothesis generation, study design, hypothesis test, 
data analysis, report, et cetera. If I do that a few times, I 
can apply that to all the other realms, that general structure, 
and that will be far more useful to me conceptually throughout 
my lifespan than would memorizing a particular set of answers 
to a broad array.
    Is that the kind of point you are making?
    Ms. Froschauer. Yes, and I appreciate your point of saying 
cover all of the points, the bullet points that are identified. 
The specificity makes it to a point where you can't even cover 
them, even close to being well-covered. And covering is not 
what this is about. This is conceptual understanding. You 
cannot develop conceptual understanding on all of those points, 
and we want conceptual understanding, and so, that is why we 
need these very specific anchors that are the essentials of the 
science curriculum.
    Chairman Baird. But if all those points are now set out as 
the 477 commandments now, or whatever they are tantamount to.
    Ms. Froschauer. Yeah.
    Chairman Baird. And if they are going to be incorporated in 
the NCLB testing, the fear of God is now on the school boards 
and the science teachers, I would assume, in the feeling they 
have to gear up to cover that stuff, possibly at the expense of 
laboratory experience?
    Ms. Froschauer. Very possibly. Very possibly.
    Dr. Eisenkraft. I would hope not, though. I would hope 
that, you know----
    Chairman Baird. My fear is are we having unintended 
consequences?
    Dr. Eisenkraft. Well, I think that there are unintended 
consequences, and the question is when the states produce exams 
in order to meet the requirements of No Child Left Behind, or 
the Federal Government produces a voluntary exam that you might 
want to do, the quality of that exam will drive the curriculum.
    So, if that exam only asks questions about what does this 
mean, fact, fact, fact, fact, and doesn't talk about the 
processes of science, how do we know, then of course, teachers 
are going to move, and say forget these ways of teaching which 
talk about process, which talk about experiments, let us just 
give a lot of worksheets and get the facts, because that is all 
that is really required, and we want to protect ourselves. So, 
the formation of the exams, and the quality of questions there 
drives the curriculum. And so, we have to ensure that when the 
states do give exams, that we make sure that those exams 
reflect what we want students to know in science as you 
enumerated.
    Chairman Baird. Dr. Ehlers.
    Mr. Ehlers. Thank you very much.
    Just, first of all, a comment on some of the discussion you 
just had. And it always struck me, when I taught laboratories, 
that very often, students would do the laboratory experiment, 
then come to me and show me the result, and say is this the 
right answer? And I would always tell them, no matter what you 
got, it is the right answer, because that is what you got from 
doing the experiment and making the measurements.
    They felt extremely uncomfortable with that. Sometimes, I 
would tell them about the experience I had in my first physics 
lab at the college level, when we were supposed to measure the 
coefficient of heat expansion of rods. You were given a rod, 
the thermometers, all that. And I measured it, and the rod, as 
I heated it, contracted. And somehow, that didn't seem good, so 
I repeated the measurement and got the same answer. So, I went 
to the instructor and said, I have observed a very interesting 
phenomenon. And he said that can't be. So, he did the 
experiment, and got the same result. Apparently, a maverick 
instructor at one point had ordered a special material rod just 
to confuse the students and test them, and this particular 
instructor didn't even know about it.
    But the point is simply the answer you get is the right 
answer. Now, you may have to worry about uncertainties, et 
cetera, but it is very hard to convey that to students.
    One of the first things we will face, if we report this 
bill out, and it goes to the floor, colleagues will say oh, new 
program, we don't have any money for new programs. That could 
stop it in its track.
    The question I have for you, based on your vast knowledge, 
do you know of any similar program that we could somehow 
integrate this into, so that it does not appear to be a new 
program? Would you consider this just out of the blue, totally 
new, or is there something else we could tie it into?
    Dr. Eisenkraft. I am unclear on what--you mean the bill?
    Mr. Ehlers. Yes. Yeah, the----
    Dr. Eisenkraft. No, I think that most of the legislation 
and funding for improved laboratories often goes to 
universities and colleges. I don't think it often goes to high 
schools. I think that is usually left to the district or the 
city or whatever. But we have inroads into this. I mean, people 
recognize the need. The Los Angeles Unified School District, 
with 700,000 students, decided three years ago to provide lab 
experiences to all of their ninth graders, at great expense, 
recognizing this, and then, to begin a program of professional 
development for all of their 360 ninth grade science teachers, 
in order to help them to do this effectively.
    Whether Los Angeles can then, after providing this quality 
experience in ninth grade, can you find the money, then, for 
tenth grade, eleventh grade, and twelfth grade? That is the 
question. But I don't think I know of programs which 
specifically give, target money for investigation of labs and 
equipment, and to test these instructional models.
    Certainly, there are parts of other NSF programs where this 
is a small part of it, but not the major directive, not saying 
no, labs are important enough for us to get behind and figure 
out what works and what doesn't.
    Mr. Ehlers. That raises the next point relating to this 
question. I asked that for a reason. Because perhaps the best 
approach is to modify the bill, so that all programs are tied 
to universities, grants are given to universities to work with 
local schools. In other words, combined grant requests. Do you 
think that would be an appropriate approach to use on this, 
particularly in view of the evaluation requirements, which most 
university faculty, who are used to getting grants, would know 
how to do the evaluation properly. Maybe high schools would 
not. Any comments on that?
    Ms. Froschauer. Well, part of the partnership within the 
bill is for university involvement.
    Mr. Ehlers. Yeah.
    Ms. Froschauer. And you are suggesting that perhaps the 
funding would go to the university to conduct the research? I 
think----
    Mr. Ehlers. I am suggesting perhaps we broaden it with the 
principal investigator being at a college or a university, 
and----
    Ms. Froschauer. But not taking it out of NSF.
    Mr. Ehlers. Not taking it out of NSF, no.
    Ms. Froschauer. Because I--sorry.
    Mr. Ehlers. It would continue to be an NSF program.
    Ms. Froschauer. Yes.
    Mr. Ehlers. Because there are similar programs in the NSF 
for that, but not specifically related to laboratory work.
    Dr. Eisenkraft. I am not sure how to micromanage that. You 
know, I think the legislation right now speaks to some kind of 
partnership between----
    Mr. Ehlers. Yeah.
    Dr. Eisenkraft.--university, high school, and industry. I 
think that is a wonderful concept, and I would really leave it 
to the National Science Foundation to write up a request for 
proposals, which could take into account all of these different 
possibilities, so they can weigh the merits of well, if the 
university is the PI, how much money is going to the high 
schools, what will be the most effective, how is the research 
done? So, I don't know if it is a simple answer.
    Mr. Ehlers. There are no simple answers in Washington, but 
this may be a simpler approach to take finally, so--thanks.
    Dr. Mundell. Yes, sir. Can I add something to that?
    Mr. Ehlers. Yes, Dr. Mundell.
    Dr. Mundell. I always felt that what we need to have is 
more of a presence of the urban university or urban college in 
the school systems, and I think by this kind of partnership 
that we are discussing right now, that would kind of lend 
itself to that sort of a presence, of having not only--develop 
a curriculum, but also have, excuse me, university faculty 
being more of a presence physically within the public schools.
    So, I would be very much in favor of that type of thing. 
How the funding actually works, I have no idea about that 
aspect of it, what would be the best way to do it.
    Mr. Ehlers. Another option might be, perhaps, that we make 
the partners, or have the industrial partners, whoever they 
might be, responsible for handling the equipment purchases, and 
the university or the school be responsible for paying for the 
training for the teachers.
    I am just looking for handle to restructure so that it fits 
better within NSF, but also, makes it easier to get it passed 
into law.
    Dr. Eisenkraft. It is very possible that the research 
coming out of the Math Science Partnerships over the past few 
years, with the National Science Foundation, could better 
inform us about what happens when you create a partnership, so 
we know how to use the money most effectively in the future.
    Mr. Ehlers. Okay. Thank you very much. I yield back.
    Chairman Baird. Thank you, Dr. Ehlers. I have one last 
question, and then, perhaps, we will conclude the hearing for 
the day.
    I was trained in clinical psychology at the University of 
Utah and in addition learned how to be a ski instructor, and it 
strikes me, actually, that maybe the instruction I got as a ski 
instructor may be better, in some ways, than what people get as 
science teachers. And the reason I say this is that any ski 
instructor in America who is certified has a certain core 
curriculum that they know, a certain sequence of skill 
development and exercises designed to achieve those skills, and 
the equipment is fairly standard, because everybody has got 
their skis and boots and poles, and they go through that, and 
you are taught that. So, you don't just say well, you can ski 
pretty good, go teach people how to do what you do. That is not 
how it works. You first teach this technique, then this.
    So, my question is does that happen in our colleges of 
education? In other words, if I am in a college of education, 
and I am training to be an eighth grade science teacher, and my 
specialty area is physics, let us say, or biology, pick it, 
doesn't matter, do I get trained in a series of activities and 
accompanying materials and exercises, that have in some way 
been tested and demonstrated effectively, and I will then 
convey that knowledge through those exercises to the students? 
Is that what happens, or what--that is how it seems like it 
ought to happen to me? I don't know if it does.
    Dr. Eisenkraft. I think Lee Schulman and Linda Darling-
Hammond working on this will tell you that happens in the best 
colleges and universities training teachers, and it doesn't 
happen in many of them. And that is another question that I 
think, you know, how much is devoted to labs? Do we know how to 
teach effectively?
    So, that is a whole different area that again, the Carnegie 
Foundation is looking at very closely, how do we make teaching 
a profession in the same way that engineers get trained, or 
lawyers get trained.
    Chairman Baird. Or ski instructors.
    Dr. Eisenkraft. Or ski instructors get trained. And I am 
sure we can all learn from one another. But anyway, it is 
another issue, and yes, the best schools do. We do know that 
research has shown that when you work with teachers, if you tie 
that professional development to the curriculum they are doing 
in their class, it is more effective than when you have 
generic, and I think that that is speaking toward--something or 
saying so--if they are teaching curriculum A in their class, 
and you gear the professional development toward curriculum A, 
there is less of a jump for that teacher to be able to transfer 
that knowledge to their classroom, and it is more effective.
    Chairman Baird. I have talked to a number of teachers and 
faculty in the discipline-based majors in academia, and the 
difference for me would be it is one thing if you teach me 
about neutrinos, let us say, and maybe that is not the best--
let us take something more simple, Newton's laws, basic laws of 
mechanics. So, you are teaching about those conceptually. If 
you want to make a good teacher of that, you then say okay, so 
here is the concept. How do you convey that concept, and why it 
matters to the kids? So, you link the content-specific area 
from the discipline-based portions of a university directly 
with the teaching curriculum.
    Is that being done in places? Because that seems, to me, to 
be the best way to do it.
    Dr. Eisenkraft. That is an interesting instructional model, 
and it is part of good instructional models, but it is not all. 
Congressman Ehlers said nothing is simple in Washington, and 
you know, in education, either, so----
    Chairman Baird. I have been in academia. We both have. So, 
I think----
    Dr. Eisenkraft. I think my colleague and mentor Cliff 
Schwartz used to say, you know, elementary education is no 
simpler than elementary particles, for your neutrino example. 
It is a complex world. The question about whether activities 
precede concepts, you know, concepts preceding vocabulary, all 
of those elements, when do you, how do you engage students 
intellectually? What does that research say? All of these come 
together for strong instructional programs.
    Chairman Baird. When I referred to academia as being 
dismal, I didn't necessarily mean it is all dismal, but trying 
to get a logic to why curricula are what they are can be a very 
astonishing process.
    Dr. Ehlers, any other questions?
    Mr. Ehlers. No, thank you.
    Chairman Baird. With that, before I bring the hearing to a 
close, I want to thank our witnesses for testifying before the 
Committee today, and for your work beyond today. You have all 
worked in distinguished careers, and contributed in so many 
ways. We are grateful for you sharing your expertise.
    And if there is no objection, the record will remain open 
for additional statements from the Members, and for answers to 
any followup questions the Committee may ask of the witnesses.
    Without objection, so ordered, and this brings the hearing 
to a close. The hearing is now adjourned.
    Thank you very much.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
